<html>
<title> - NEXT GENERATION BORDER AND MARITIME SECURITY TECHNOLOGIES: H.R. 3916</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       NEXT GENERATION BORDER AND 
                    MARITIME SECURITY TECHNOLOGIES: 
                               H.R. 3916 

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________

                           Serial No. 110-73

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

38-771 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















































                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
MIKE ROSS, Arizona                   PAUL C. BROUN, Georgia
LAURA RICHARDSON, California           
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
          COLIN MCCORMICK Democratic Professional Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


























                            C O N T E N T S

                           November 15, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Prepared Statement by Representative David Wu, Chairman, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    12

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................     9

Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    13

                               Witnesses:

Mr. Robert R. Hooks, Director of Transition, Science and 
  Technology Directorate, Department of Homeland Security
    Oral Statement...............................................    14
    Written Statement............................................    17
    Biography....................................................    20

Mr. Ervin Kapos, Director, Operations Analysis, Science and 
  Technology Directorate, Department of Homeland Security; 
  Executive Director, Homeland Security Science and Technology 
  Advisory Committee (HSSTAC)
    Oral Statement...............................................    21
    Written Statement............................................    22
    Biography....................................................    22

Dr. Brian A. Jackson, Associate Director, Homeland Security 
  Research Program, The RAND Corporation
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    32

Chief Jeff Self, Division Chief, U.S. Border Patrol
    Oral Statement...............................................    32
    Written Statement............................................    34

Discussion.......................................................    36

             Appendix 1: Answers to Post-Hearing Questions

Mr. Robert R. Hooks, Director of Transition, Science and 
  Technology Directorate, Department of Homeland Security........    46

Mr. Ervin Kapos, Director, Operations Analysis, Science and 
  Technology Directorate, Department of Homeland Security; 
  Executive Director, Homeland Security Science and Technology 
  Advisory Committee (HSSTAC)....................................    52

Dr. Brian A. Jackson, Associate Director, Homeland Security 
  Research Program, The RAND Corporation.........................    53

Chief Jeff Self, Division Chief, U.S. Border Patrol..............    55

             Appendix 2: Additional Material for the Record

H.R. 3916, To provide for the next generation of border and 
  maritime security technologies.................................    60


  NEXT GENERATION BORDER AND MARITIME SECURITY TECHNOLOGIES: H.R. 3916

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Bart 
Gordon (Chairman of the Committee) presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Next Generation Border and

                    Maritime Security Technologies:

                               H.R. 3916

                      thursday, november 15, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, November 15, 2007, the Committee on Science and 
Technology's Subcommittee on Technology and Innovation will hold a 
hearing to discuss H.R. 3916 and examine the current and future 
priorities in border and maritime security research, development, and 
technology for the Department of Homeland Security's Science and 
Technology Directorate (DHS S&T).

2. Witnesses

Dr. Robert Hooks is the Director of Transition for the Department of 
Homeland Security's Science and Technology Directorate.

Mr. Ervin Kapos is the Director of Operations Analysis for the 
Department of Homeland Security's Science and Technology Directorate. 
He acts as the Executive Director of the Homeland Security Science and 
Technology Advisory Committee (HSSTAC).

Dr. Brian Jackson is an Associate Physical Scientist for the Science 
and Technology Policy Institute at the RAND Corporation.

Mr. Jeff Self is Division Chief of the U.S. Border Patrol.

3. Brief Overview

        <bullet>  The U.S. Customs and Border Protection (CBP) 
        processes approximately 1.18 million people entering the United 
        States through established ports of entry every day. CBP is 
        also responsible for monitoring between legal entry points 
        along the Northern and Southern borders and intercepting 
        individuals attempting to cross the border. Border patrol 
        officers also act as first responders, rescuing individuals in 
        danger from extreme weather or violent situations at illegal 
        entry points.

        <bullet>  Surveillance technology acts as a ``force 
        multiplier,'' which allows border patrol agents to augment 
        their patrols with ground based and aerial observation 
        capabilities. Examples of currently in-use security 
        technologies include infrared sensors, automated cameras, and 
        seismic sensors to detect motion, as well as air based 
        observational equipment to monitor a large area.

        <bullet>  Many promising technologies are still not feasible 
        for full implementation along the border because of numerous 
        barriers: high cost, lack of robustness in harsh conditions, 
        lack of personnel trained to properly use high-tech equipment, 
        and technical problems. DHS S&T has primary responsibility for 
        bringing new technologies to full readiness, with support from 
        other agencies such as the National Institute of Standards and 
        Technology, which provides testing and validation services.

        <bullet>  Additionally, many capability gaps, including 
        situational awareness and officer safety, have been identified 
        by end-users that require further basic and applied research to 
        meet existing or anticipated challenges. DHS S&T has several 
        mechanisms to receive advice on R&D priorities, including 
        Integrated Product Teams (IPTs), which bring together 
        stakeholders from other components of DHS, including CBP, in a 
        regular, formal process to determine short-term technology 
        needs. Advice on longer-term research priorities comes from a 
        number of sources, including the Homeland Security Science and 
        Technology Advisory Committee (HSSTAC), the Homeland Security 
        Institute (HSI), and the National Academies.

        <bullet>  The Border and Maritime Security Division of the DHS 
        S&T Directorate has ongoing research projects focusing on 
        advanced sensing capabilities, decision-making software tools, 
        non-intrusive search capabilities, and other priorities. 
        Additionally, the U.S. Coast Guard (USCG) and National 
        Institute of Standards and Technology (NIST) carry out some 
        border and maritime security technology research. USCG research 
        includes officer protection, boarding, and suspect apprehension 
        tools such as net guns for trapping fleeing boats. NIST has 
        been conducting research on facial recognition technologies and 
        fingerprint analysis, and technical tests of the RFID 
        technology being incorporated into new electronic passports 
        being issued by the State Department to prevent document 
        counterfeiting.

4. Issues and Concerns

How does the DHS Science and Technology Directorate (DHS S&T) set 
overall research and development priorities? Under Secretary Jay Cohen, 
who took over leadership of DHS S&T in 2006, has established six 
research divisions that focus on specific technical areas. These 
divisions are Explosives, Chemical/Biological, Human Factors, Border/
Maritime, Infrastructure/Geophysical, and Command, Control, and Inter-
operability. Funding for each division is determined by the Under 
Secretary.
    Short-term technology research priorities within each division are 
established by a formal mechanism based on a program at the Naval 
Research Laboratory (NRL). Integrated Product Teams (IPTs) bring 
together stakeholders from the mission components of DHS, such as the 
Transportation Security Administration (TSA) or Customs and Border 
Protection (CBP). The IPTs are organized by theme, and stakeholders 
first determine outstanding capability gaps and then rank research 
projects by order of urgency. Of the 11 IPTs, three deal with issues 
related to H.R. 3916: Border Security, Maritime Security, and Cargo 
Security.
    Short-term projects determined through the IPT process account for 
roughly seventy percent of the DHS S&T budget and are managed by the 
Transition Portfolio Director. Longer-term basic research currently 
accounts for approximately thirteen percent with an announced goal of 
increasing this share to twenty percent over the next few years.
    Currently, there is no strategic plan guiding longer-term research 
priorities. The agency turns to a number of resources for advice on 
long-term planning, including internal groups such as the Homeland 
Security Science and Technology Advisory Committee (HSSTAC) and the 
Homeland Security Institute (HSI) as well as outside think tanks and 
advisory bodies such as the National Academies. However, there is no 
mechanism to coordinate the efforts of the various advisory groups. The 
results of the efforts of these groups are unclear, however, as DHS S&T 
has not released a strategic plan outlining specific long-term research 
priorities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


What are the current short- and long-term priorities in border and 
maritime security technology R&D? Is ongoing R&D helping to overcome 
some of the barriers to implementing specific border security 
technologies, such as unmanned aerial vehicles? Border and Maritime 
Security research is run through the Border and Maritime Division of 
DHS S&T, currently headed by Acting Director Captain Dave Newton 
(USCG). Additional border security research is carried out by other 
divisions within the S&T Directorate, most notably the Command, Control 
and Inter-operability (C2I) and Human Factors (HF) divisions as well as 
other agencies including the U.S. Coast Guard (USCG) and National 
Institute of Standards and Technology (NIST). Because of the many 
players in the border security technology realm, there are not 
consistent priorities across the many agencies and divisions. However, 
within DHS S&T, the divisions involved in border security research work 
to coordinate their efforts through the IPT process.
    Currently, DHS S&T efforts are focused on situational awareness 
(the collection and harmonization of information about a situation from 
numerous sources), officer safety, and cargo security. The associated 
research projects span a variety of fields, including sensor 
technologies, command and control systems and software, connectivity 
tools, modeling and simulation, non-intrusive search tools, and cargo 
monitoring tools.

How will H.R. 3916 affect ongoing and future R&D at DHS S&T? H.R. 3916, 
introduced by Ranking Member Hall on October 22, 2007, strives to 
provide guidance to DHS S&T on the process of setting research 
priorities, ensuring that technology meets the needs of end-users, and 
on specific border security research priorities.

5. Background

    This hearing will examine H.R. 3916, a bill introduced by Ranking 
Member Ralph Hall with the goal of improving long-term planning for 
research and development at the Department of Homeland Security, 
especially in the area of border and maritime security technology. The 
bill authorizes specific border security technology programs, and 
instructs DHS S&T to improve processes for setting research priorities 
and serving the needs of technology end-users.

Section-by-Section Discussion

Section 1: Requires the Department of Homeland Security Science and 
Technology Directorate (DHS S&T) to clearly define the operational 
requirements of technologies they are developing for Customs and Border 
Patrol and other end-users. These one to three-year product development 
projects are part of the Transition portfolio at DHS S&T and comprise 
the bulk of research and development spending (approximately 70 
percent).

    This section is intended to ensure that both DHS S&T and the DHS 
customer component that will eventually own and operate the equipment 
developed have agreed to baseline requirements for operational as well 
as technical objectives. This requirement can be met through the 
Technology Transition Agreements (TTAs) that S&T currently negotiates 
for development work.

Section 2: Extends the S&T Advisory Committee, which was last extended 
through December 31st, 2008 in the SAFE Ports Act of 2006. Currently 
S&T is appointing new members and has recently begun new meetings. The 
Committee briefly lapsed in November 2005. Further extends the Advisory 
Committee through December 31, 2012.

    The HSSTAC was created with the original Homeland Security Act, but 
lapsed once and has produced little for the Department. Since coming 
on-board last year, Under Secretary Cohen has reconstituted the 
committee and begun seeking their advice on specific topics. However, 
the committee will lapse again in December of 2008 without 
congressional action. The usefulness of the HSSTAC is largely 
determined by the Under Secretary's willingness to engage them in his 
decision-making, but letting them lapse would remove the only 
independent, S&T-focused advisory body immediately available to the 
department.

Section 3: Calls for an NRC study to provide a roadmap for research 
activities in the border/maritime division.

    One of the primary gaps in DHS S&T's planning is the lack of a 
long-term research strategy. In 2002 the National Academies completed a 
90-day study titled ``Making the Nation Safer'' that gave a general 
overview of how DHS S&T could support the then-fledgling Department. 
However, DHS S&T has failed to set specific long-term strategic 
priorities to guide research and development decisions. This section 
would allow the NAS to look specifically at one division of DHS S&T. 
The document produced by the NRC would give program managers at DHS a 
longer-term perspective than is provided through the one to three-year 
IPT process. If successful, similar reports could be commissioned for 
the other major DHS S&T divisions, such as Explosives or C2I.

Section 4: Reminds DHS of their role as a potential operator of 
Unmanned Aerial Vehicles (UAVs) in the national airspace and directs 
them to continue their work in the Joint Planning and Development 
Office accordingly. Currently, operation of UAVs in national airspace 
requires considerable advance planning and approval from the Federal 
Aviation Administration. Requires DHS to seek the ability to routinely 
and safely operate UAVs for border and maritime security missions. 
Authorizes DHS to take part in pilot projects to obtain whatever data 
is necessary to make an informed decision about how UAVs can be safely 
included in the airspace.

    Several laws enacted in the 108th and 109th Congresses instructed 
DHS to work towards implementing a UAV surveillance program for border 
security. Numerous challenges have prevented DHS from launching a broad 
UAV program, including safety concerns. UAVs currently have an accident 
rate 100 times greater than that of manned aircraft. They are also more 
susceptible to adverse weather conditions than manned aircraft. These 
safety issues can likely be solved through further research, but flight 
tests will be an integral part of improving UAV technology. However, 
under current FAA regulations, UAVs cannot fly in the U.S. without 
special permission.
    DHS is involved in an inter-agency planning group, the Joint 
Planning and Development Office (JPDO), to design the Nation's next 
generation air traffic control system, including UAV use. However, 
DHS's involvement to date is principally through the TSA. Given the 
high likelihood that DHS components would operate UAVs in the U.S., the 
Department should take a more active role now in planning for their 
introduction.

Section 5: Requires DHS to create a formal research program in the area 
of tunnel detection, and to coordinate with similar DOD activities. 
Calls for priority to be given to technologies that would allow real-
time detection of tunnels and would allow for immediate action by 
Customs and Border Protection (CBP) officers.

    Various advanced fencing and surveillance technologies are 
currently being tested as part of the Secure Border Initiative. 
However, in San Diego, where the double-layer Sandia fencing has been 
constructed, smugglers have dug numerous tunnels underneath the border 
fence, including one concrete-reinforced, kilometer-long tunnel. This 
is just one example of the systemic challenges that face border patrol 
agents. With time and resources, committed individuals can avoid most 
border surveillance by simply digging right past them. Furthermore, 
detecting tunnels is remarkably difficult and solutions in the one to 
three-year time-frame are not likely. This has led DHS S&T and CBP to 
focus on other near-term priorities. This section asserts Congressional 
interest in a long-term tunnel detection program.

Section 6: Requires the Under Secretary for S&T and Director of NIST to 
begin a joint R&D project of anti-counterfeit technologies and 
standards. Furthermore, this designee is charged with coordinating 
research activities with other federal agencies engaged in related 
research. Requires a report to Congress on the research programs 
undertaken under this section one year after enactment.

    Counterfeit documents are a major problem at legal ports of entry, 
with individuals attempting to enter the U.S. using fraudulent 
passports, identification, or birth certificates. CBP intercepts over 
200 fake documents daily at the Nation's borders, but technology for 
creating counterfeit documents is growing increasingly sophisticated 
and fraud is increasingly difficult to detect. The Federal Government 
has begun to support research activities to development technology for 
verifying documents, but currently activity in this area is broadly 
distributed with DOD, Treasury, Immigrations and Customs Enforcement, 
State, and Justice all pursuing various aspects. DHS S&T, however, has 
not been actively involved despite the clear impact on agencies such at 
ICE and CBP.
    Chairman Gordon. Good morning, everyone, to today's hearing 
on Next Generation Border and Maritime Security Technologies.
    Now, the mission of U.S. Customs and Border Protection is 
one of the most difficult within the Department of Homeland 
Security. CBP officials are responsible for securing the 
movement of people and goods by air, land, sea, across our 
nation's borders. That job is part law enforcement, part first 
responder, part diplomat, and part detective, and the scope of 
CBP's job is enormous. Nearly 1.2 million people come through 
our legal ports of entry every day. In addition, illegal 
activity, including unlawful border crossing, drug smuggling, 
and human trafficking is persistent.
    The State Department estimates that nearly 18,000 people 
are smuggled into the U.S. every year for the purpose of forced 
labor. They also report that nearly 90 percent of the cocaine 
and the majority of the heroin in the U.S. comes from our 
southern borders. It is clear that these agents need the help 
of new technology to do their jobs better, and to make our 
borders more secure.
    Technology acts as additional eyes and ears for Border 
Patrol agents, allowing for observation of border areas 24 
hours a day. The Department of Homeland Security's Science and 
Technology Directorate supports R&D to meet technology needs of 
the Department's components, including CBP. There are some 
promising technologies that have been deployed, but the 
enormous scope of the border security challenge requires a 
long-term strategic plan that has not yet been developed. 
Without a specific plan for border security technology 
research, long-term basic research will be disconnected from 
the real-life challenges of coming years and decades.
    Additionally, short-term priorities must be more responsive 
to the needs of end-users. When he appeared before the 
Technology and Innovation Subcommittee in March, Under 
Secretary Cohen outlined measures that DHS S&T is taking to 
involve end-users in setting research priorities, including 
integrated product teams and Web-based means for soliciting 
end-user opinions on technical needs. But DHS must do more than 
simply identify capability gaps. End-users should be able to 
provide feedback on cost, robustness, and other characteristics 
that determine whether a technology will be adopted or whether 
it will sit on the shelf. This is especially true for border 
security technologies, which are often used by agents without 
significant technical training in harsh environments.
    I would like to commend Ranking Member Hall on his bill, 
H.R. 3916, which takes important steps toward improving the 
capabilities of the Border Patrol to prevent criminal 
activities at and around our nation's borders. Mr. Hall's bill 
authorizes important programs to enhance Border Patrol's 
ability to carry out its mission by supporting short- and long-
term research priorities. Additionally, it ensures that new 
technologies will be useful to Border Patrol agents by 
mandating that DHS work to meet cost and training needs of end-
users when developing these technologies. This bill is a 
concrete step toward solving a complex issue now, on how to 
secure our nation's borders against those who would do us harm. 
I look forward to working with Ranking Member Hall on this bill 
as we move forward.
    I now recognize Dr. Gingrey, the Ranking Member, for his 
opening statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    I'd like to thank Chairman Wu for calling today's hearing and 
commend Ranking Member Hall on his bill, which takes important steps 
towards improving the capabilities of the Border Patrol to prevent 
criminal activity at and around our nation's borders.
    Border Patrol agents are responsible for securing nearly seven 
thousand miles of land borders to the North and South, as well as 
ninety-five thousand miles of shoreline. While our current corps of 
border patrol agents is doing a commendable job, their job is daunting.
    Technology can play a vital role in extending observational 
capabilities, helping border patrol agents locate suspects and monitor 
the border more effectively.
    Mr. Hall's bill authorizes important programs to enhance the border 
patrols ability to carry out its mission by supporting short- and long-
term research priorities.
    Additionally, it ensures that new technologies will be useful to 
border patrol agents by mandating that DHS work to meet cost and 
training needs of end-users when developing these technologies.
    This bill is a concrete step towards solving a complex issue: how 
to secure our nation's borders against those who would do us harm.
    I look forward to working with Ranking Member Hall on this bill as 
we move forward.

    Mr. Gingrey. Good morning, Chairman Gordon, and I want to 
thank you for, of course, holding this hearing on H.R. 3916, 
the border security bill that was introduced by the 
distinguished Ranking Member of the Full Committee, Mr. Hall, 
of Texas.
    As an original co-sponsor of H.R. 3916, I am pleased to see 
that the Science Committee and specifically this subcommittee, 
which I am Ranking Member of, the Subcommittee on Technology 
and Innovation, is taking an active role in securing our 
borders, and I believe it is one of the most important issues 
facing this Congress and the country as a whole.
    Mr. Chairman, I commend both you and Chairman Wu for co-
sponsoring the legislation that does improve long-term planning 
for R&D at the Department of Homeland Security and border and 
maritime security technology. As a Member of the Congressional 
Immigration Reform Caucus, I support and I have authored 
legislation that will help secure our borders and discourage 
illegal immigration. I believe that H.R. 3916 will assist the 
Department of Homeland Security and U.S. Customs and Border 
Protection Agency in long-term utilization of technologies to 
help us secure our border from threats that face our nation.
    Mr. Chairman, I am indeed, as I say, proud to support this 
legislation, and at this time, I will yield back to you.
    [The prepared statement of Mr. Gingrey follows:]
           Prepared Statement of Representative Phil Gingrey
    Good Morning Chairman Wu. I want to first thank you for holding 
this hearing on H.R. 3916 the border security bill introduced by the 
distinguished Ranking Member of the Full Committee, Mr. Hall of Texas. 
As an original co-sponsor of H.R. 3916, I am pleased to see that the 
Science Committee--and specifically the Subcommittee on Technology and 
Innovation--is taking an active role in securing our borders, which I 
believe is one of the most important issues facing this Congress and 
our country as a whole.
    Mr. Chairman, I commend both you and Chairman Gordon for co-
sponsoring this legislation that improves long-term planning for R&D at 
the Department of Homeland Security in border and maritime security 
technology. As a Member of the Congressional Immigration Reform Caucus, 
I support and have authored legislation that will secure our borders 
and discourage illegal immigration. I believe that H.R. 3916 will 
assist the DHS and the U.S. Customs and Border Protection agency in 
long-term utilization of technology to help us secure our border from 
threats that face our nation.
    Mr. Chairman, I look forward to hearing today's testimony from our 
panel on this vital issue of border security and the solutions they 
have that will enable us to plan for the use of emerging technologies 
in the future. With that Mr. Chairman, I yield back.

    Chairman Gordon. With no objections, I would like to yield 
to Mr. Hall for whatever time he might consume.
    Mr. Hall. Mr. Chairman, thank you, and I join Dr. Gingrey 
in his accolades for your cooperation and assistance in holding 
a hearing on border security and House Bill 3916, that I 
introduced just a few weeks ago, and I think it is a crucial 
issue for the Committee to discuss, and I would like to thank 
you and the Full Committee, Chairman Gordon. I thank you 
personally for co-sponsoring this legislation and bringing this 
very capable panel before us today. I would also like to thank 
Mr. McCaul for the substantial contribution he made to the 
bill.
    Border security is a concern of all Members of Congress, 
and we have nearly 7,500 miles of border, land border with 
Canada and Mexico, over which half a billion people and 2.5 
million rail cars pass each year. In addition, we have over 300 
ports that see over nine million cargo containers each year. 
Now, we have a myriad of reasons for wanting strict control 
over this traffic. For instance, according to Department of 
Justice statistics, over 30,000 kilograms of cocaine, heroin, 
and meth were seized within 150 miles of the U.S.-Mexico border 
in 2006.
    I know many Members of this committee have worked 
tirelessly and hard to end the meth problems in our nation, yet 
success at restricting access to meth ingredients here in the 
States has led drug dealers to import more across our borders. 
Stopping the flow of narcotics across our borders remains, I 
think, key to our efforts to curb illegal drug use.
    The threat of terrorism also compels us to re-examine our 
borders. Whether we are talking about foreign groups trying to 
infiltrate our country, or homegrown terrorists seeking weapons 
and supplies, our borders remain a critical element of our 
defenses. Our enemies, however, are adaptive and guileful. One 
of our witnesses today, Dr. Jackson, has tracked a number of 
terrorist groups and has sage advice about our need for a 
multi-layered defense.
    Finally, in Fiscal Year 2005, U.S. Border Patrol agents 
apprehended 1.19 million people attempting to enter the country 
illegally. While I understand the concerns many Members have 
regarding comprehensive immigration reform, we should not allow 
that issue to stymie progress deterring terrorists, drug 
smugglers, and human traffickers.
    I believe this committee is ideally positioned to 
strengthen control of our nation's borders through bipartisan 
legislation supporting effective, efficient, and evolving 
defenses. H.R. 3916 begins this effort. The sections in this 
bill reflect a single underlying theme. The Science and 
Technology Directorate at DHS needs to establish long-term 
goals and objectives for border security and broaden science 
and technology community involvement. The bill highlights three 
long-term research areas: unmanned aerial vehicles, tunnel 
detection, and anti-counterfeit technologies that promise to 
significantly improve border security across all the threats 
and against all the threats that we currently face.
    I have a longer statement for the record that includes 
additional background on H.R. 3916, but in the interests of 
time, I will yield following one parting thought, and that is 
that border security is one of the most difficult problems 
faced by scientists and engineers. It is a complex system of--
it is just a system of systems, that will require concerted 
interdisciplinary attention over many years, and I urge this 
committee to take the lead in Congress to push a long-term, 
adaptable, science-enabled border security policy.
    And I yield back my time, and I thank the Chair.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Chairman Wu, thank you for holding this hearing on border security 
and the bill H.R. 3916 that I introduced just a few weeks ago. I 
believe this is a crucial issue for this committee to discuss. And I 
would like to thank you and Full Committee Chairman Gordon for co-
sponsoring this legislation and bringing this capable panel before us 
today. I'd also like to thank Mr. McCaul for the substantial 
contribution he made to the bill.
    Border security is a concern of all Members of Congress. We have 
nearly 7,500 miles of land border with Canada and Mexico, over which 
half a billion people and 2.5 million rail cars pass per year. In 
addition we have over 300 ports that see over nine million cargo 
containers each year. Meanwhile, the Government Accountability Office 
estimates that one in ten serious drug and weapon violators and illegal 
immigrants pass through airports and land borders undetected.
    We have a myriad of reasons for wanting strict control over this 
traffic. For instance, according to Department of Justice statistics, 
over 26,000 kilograms of marijuana were seized in northern border 
states in 2005 while over 30,000 kilograms of cocaine, heroine, and 
methamphetamine were seized within 150 miles of the U.S./Mexico border 
in 2006. Stopping the flow of narcotics across our border remains key 
to our efforts to curb illegal drug use. I know many Members of this 
committee have worked tirelessly to end the scourge of methamphetamine 
in our nation. Yet, success at restricting access to meth ingredients 
here in the States has led drug dealers to import more across our 
borders.
    The threat of terrorism also compels us to re-examine our borders. 
Whether we're talking about foreign groups trying to infiltrate our 
country or home-grown terrorists seeking weapons and supplies, our 
borders remain a critical element of our defenses. Major efforts in 
this area are well underway. With the help of the Science and 
Technology Directorate, Customs and Border Protection has created a 
massive screening program to detect nuclear material that might be 
smuggled in via cargo containers. Our enemies, however, are adaptive 
and guileful. One of our witnesses today, Dr. Jackson, has tracked a 
number of terrorist groups and has sage advice about our need for a 
multi-layered defense.
    Finally, in fiscal year 2005, U.S. Border Patrol agents apprehended 
1.19 million people attempting to enter the country illegally. While I 
understand the concerns many Members have regarding comprehensive 
immigration reform, we should not allow that issue to stymie progress 
deterring terrorists, drug smugglers, and human traffickers.
    I believe this committee is ideally positioned to strengthen 
control of our nation's borders through bipartisan legislation 
supporting effective, efficient, and evolving defenses. H.R. 3916 
begins this effort. The sections in this bill reflect a single 
underlying theme: the Science and Technology Directorate at DHS needs 
to establish long-term goals and objectives for border security and 
broaden science and technology community involvement. The bill 
highlights three long-term research areas, unmanned aerial vehicles, 
tunnel detection, and anti-counterfeit technologies, that promise to 
significantly improve border security across all the threats we 
currently face.
    Section 1 requires S&T to include cost and operational objectives 
in any near-term application development. This section is meant to 
ensure that both S&T and the DHS component that will eventually own and 
operate the equipment developed have agreed to baseline requirements 
for operational as well as technical objectives. This requirement can 
easily be met through the Technology Transfer Agreements (TTAs) that 
S&T currently negotiates for development work.
    Section 2 extends the S&T Directorate's advisory committee through 
2012. The HSSTAC was created with the original Homeland Security Act, 
but lapsed once in that time. Under Secretary Cohen has reconstituted 
the committee and begun seeking their advice on specific topics. 
However, the committee will lapse again in December of 2008 without 
Congressional action.
    Section 3 specifically addresses long-term planning in the border 
security realm by tasking the National Research Council with a needs 
assessment and road-mapping request. In 2002 the National Academies 
completed a 90-day study titled ``Making the Nation Safer'' that gave a 
general overview of how S&T could support the fledgling DHS. This 
section would allow the NAS to look specifically at one sector of DHS 
S&T. The document produced by the NRC would give program managers at 
DHS a longer-term perspective than is provided through the one to 
three-year IPT planning process. If successful, similar reports could 
be commissioned for the other major DHS S&T divisions, such as 
Explosives, Chem/Bio, or Cyber Security.
    Section 4 directs the Secretary of DHS to take an active role in 
safely incorporating unmanned aerial vehicles into the national 
airspace. UAV's cannot currently fly in the U.S. without special 
permission from the FAA. DHS is involved in an interagency planning 
group, the JPDO, to design the Nation's next generation air traffic 
control system, including UAV use. Given the high likelihood that DHS 
components would operate UAVs in the U.S., the Department should take a 
more active role now in planning for their introduction.
    The tunnel detection program described in Section 5 aims at solving 
a persistent smuggling problem. Organized crime has the time and 
resources to avoid most border surveillance by simply digging right 
past them. However, detecting tunnels is remarkably difficult and 
solutions in the one to three-year timeframe are not likely.
    Similarly Section 6 asserts Congressional interest in a sustained 
program to defeat counterfeiting. Activity in this area is broadly 
distributed in the Federal Government with DOD, Treasury, Immigrations 
and Customs Enforcement, State, and Justice all pursuing various 
aspects. DHS S&T, however, does not have a devoted office or program in 
this area despite the clear impact on agencies such at ICE and CBP.
    Border security is one of the most difficult problems faced by 
scientists and engineers. It is a complex system of systems that will 
require concerted, interdisciplinary attention over many years. I urge 
this committee to take the lead in Congress to push a long-term, 
adaptable, science-enabled border security policy.

    Chairman Gordon. Thank you, Mr. Hall. Your full remarks 
will be made a part of the record. As a Texan, you have first-
hand knowledge of this, and I can assure you that the Majority 
looks very forward to working with you and Dr. Gingrey and your 
staff and other Members of this committee on this important 
issue. It will be fast tracked, and we will, again, be as 
accommodating as you would like.
    [The prepared statement of Chairman Wu follows:]
                Prepared Statement of Chairman David Wu
    I want to thank everyone for attending today's hearing on Next 
Generation Border and Maritime Security Technologies.
    The mission of the U.S. Customs and Border Protection is one of the 
most difficult within the Department of Homeland Security. CBP 
officials are responsible for securing the movement of people and goods 
by air, land, and sea across our nation's borders. That job is part law 
enforcement, part first responder, part diplomat, and part detective. 
And the scope of its job is enormous. Nearly 1.2 million people come 
through legal ports of entry every day. In addition, illegal activity--
including unlawful border crossings, drug smuggling, and human 
trafficking--is persistent. The State Department estimates that nearly 
18 thousand people are smuggled into the U.S. every year for the 
purpose of forced labor. They also report that nearly 90 percent of 
cocaine and a majority of the heroin in the U.S. comes across our 
Southern border.
    The House has voted to increase the number of Border Patrol 
officers by 3000, and it is clear that these agents need the help of 
new technology to do their jobs better and to make our borders more 
secure. Technology acts as additional eyes and ears for Border Patrol 
agents, allowing for observation of broad areas 24 hours a day. 
Innovative technologies such as unmanned aerial vehicles, infrared 
sensors, and motion detectors help border agents identify where illegal 
activity might be taking place, multiplying the effectiveness of 
existing and added CBP staff.
    The Department of Homeland Security's Science and Technology 
Directorate supports R&D to meet the technology needs of the 
Department's components, including CBP. There are some promising 
technologies that have been deployed, but the enormous scope of the 
border security challenge requires a long-term strategic plan that has 
not yet been developed. Without a specific plan for border security 
technology research, long-term basic research will be disconnected from 
the real life challenges of coming years and decades.
    Additionally, short-term priorities must be more responsive to the 
needs of end-users. When he appeared before this subcommittee in March, 
Under Secretary Cohen outlined measures that DHS S&T is taking to 
involve end-users in setting research priorities, including Integrated 
Product Teams and web-based means of soliciting opinions.
    But DHS must do more than simply identify capability gaps that need 
to be filled with technology. End-users should be able to provide 
feedback on cost, robustness and other characteristics that determine 
whether a technology will be adopted or whether it will sit on the 
shelf. This is especially true for border security technologies, which 
are often used by agents without significant technical training in 
harsh environments.
    I want to thank the Ranking Member of the Full Committee, Mr. Hall, 
for introducing H.R. 3916, which we will be discussing today. That 
legislation addresses these crucial issues and brings up some important 
questions. Do we have the technology we need to help CBP do its job? Do 
the new technologies developed by DHS meet the needs of end-users in 
terms of cost and ease of use, and other important parameters? And, 
more generally, how is the DHS Science and Technology Directorate 
determining priorities for R&D?
    I'm eager to hear our witnesses' thoughts on the answers to these 
questions. I am especially interested to hear our DHS witnesses' 
comments on how they will work to meet the technology needs of the 
border patrol in the short- and long-term. We need to do a better job 
of aligning research to the needs of end-users, and I'm looking forward 
to working with my colleagues to promote innovative technology to 
support our nation's hardworking border patrol.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Border security is an issue that truly hits home. Illegal 
immigration affects Arizona more than any other state-more than half of 
illegal crossings over the U.S.-Mexico border happen in Arizona.
    When the Federal Government fails to live up to its responsibility, 
Arizona pays a hefty price. Illegal immigration fosters violent drug 
and human smuggling crimes, and burdens our local law enforcement and 
emergency rooms.
    These illegal crossings threaten our national security. We must do 
better.
    We can start by ensuring that these border agents have all the 
tools necessary to protect our borders. Stopping people from crossing 
the border is not as simple as building a fence. These people sneak 
across the border daily by going to under-patrolled areas, jumping over 
fences, and building underground tunnels.
    I am proud to co-sponsor Chairman Hall's legislation, H.R. 3916, 
which will help provide our border guards with technologically advanced 
equipment to monitor the borders. Significantly, this bill will improve 
border security by advancing technology for tunnel detection as well as 
aerial monitoring of the border.
    I look forward to hearing from our witnesses on how this 
legislation will help secure our borders.
    I yield back.

    Chairman Gordon. Let me also say, this is a very 
distinguished panel. I want to thank you for taking your time 
to be here. We have Members that are in both parties, who have 
conferences and meetings this morning getting started, so we 
are going to have some folks coming in. This hearing is 
televised. Staff are watching it both from the anteroom and 
back in the offices, and Members are watching it there, too, so 
your testimony falls on a large audience, and we want to have 
that input from all.
    So now let me introduce our distinguished panel. First, Mr. 
Robert Hooks is the Director of Transition at the Department of 
Homeland Security Science and Technology Directorate, also 
known as DHS S&T. Mr. Ervin Kapos is the Director of Operations 
Analysis at the DHS S&T and coordinates the Homeland Security 
Science and Technology Advisory Committee, called HSSTAC. And 
Dr. Brian Jackson is the Associate Director of the Homeland 
Security Research Program at the RAND Corporation. And Mr. Jeff 
Self is the Division Chief for the U.S. Border Patrol, for some 
real-world information here today. Thank you, Chief, for being 
here.
    And as our witnesses should know, the spoken testimony is, 
we try to limit it to five, but we don't want you to feel 
uncomfortable. If you--we really want your information, if you 
take what you need, and the remainder of your testimony will 
certainly be in the record.
    And we will now start with Mr. Hooks.

   STATEMENT OF MR. ROBERT R. HOOKS, DIRECTOR OF TRANSITION, 
  SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hooks. Good morning, Chairman Gordon, Ranking Members 
Hall and Gingrey, and distinguished Members of this 
subcommittee. I am Robert Hooks, and I should clarify, I am not 
a doctor. I wish I was, but I am not.
    I am the Director of Transition Portfolio for the Science 
and Technology Directorate of the Department of Homeland 
Security, and I am pleased to appear before you today to 
discuss the successes that the Department of Homeland 
Security's Science and Technology Directorate have achieved 
with respect to technology solutions on our borders, both land 
and sea. Under Secretary Cohen asked me to express his 
appreciation and thanks to this committee, your staffs, and the 
entire Congress for the strong bipartisan leadership and 
support you have given him and the men and women of the Science 
and Technology Directorate as we work to make the Nation safer.
    Nearly 14 months ago, with Congress' support, Under 
Secretary Cohen implemented a new organizational structure for 
the Science and Technology Directorate, to make it customer 
focused and output oriented. Our customers are the operating 
components and directorates of DHS, and their stakeholders are 
the State, local, tribal governments, first responders, and the 
private-sector entities. Our Science and Technology effort to 
deliver technology is primarily organized into three 
portfolios: transition, innovation, and basic research.
    The Product Transition Portfolio, for which I am the 
Director, is centered on 11 functional DHS customer-led, 
Capstone Integrated Product Teams, three of which are Maritime 
Security, Cargo Security, and Border Security. In the Capstone 
IPTs, DHS operational components, and directorates are the 
chairs or co-chairs. They define and prioritize the capability 
gaps, then S&T offers technical solutions, where the customer 
is then the final approval on if the offered technical solution 
is appropriate for them.
    While we have identified the principal customers within the 
Capstone IPTs, as the chairs or co-chairs, they are not the 
only representatives at these IPTs. All of the DHS operational 
components and directorates are invited as customers to any 
Capstone IPT relevant to their mission. As an example, because 
of the interrelationship within their respective geographic 
areas of responsibility, Coast Guard has representation at the 
Borders IPT, and CBP is represented at the Border Security IPT.
    Directed by the priorities of the Border, Cargo, and 
Maritime Security Capstone IPTs, S&T is developing technologies 
that can be delivered to components in the near-term, usually 
less than three years, to assist in securing our maritime land 
borders and protecting CBP and Coast Guard law enforcement 
officers, and you see some of those displayed on the placards 
and also at the table.
    We are pursuing efforts to deliver advanced detection, 
identification, apprehension, and enforcement capabilities 
along land and maritime borders, and provide advanced 
technology, spiral development injections into DHS component 
program areas, such as SBInet, Command 21, the Secure Freight 
Initiative, Container Security Initiative, and Customs Trade 
Partnership Against Terrorism, CTPAT.
    Specifically in the border security area, a number of our 
near-term product transition programs focus on developing 
detection, classification, and localization sensor technology 
to monitor illegal border activity with a wider range and 
greater accuracy than present-day technologies and command-and-
control systems that deliver a much broader amount of 
information about current events to different levels of law 
enforcement, communication systems that provide connectivity 
for law enforcement officers working in remote locations, as 
well as modeling and simulation tools to help border 
enforcement agencies make informed improvements in immigration 
and border security policy and operations, and appropriate 
investments in technology, complex systems, and infrastructure. 
These technologies and systems will help to ensure that 
maritime and border security assets are used effectively and 
efficiently, and enable law enforcement to have access to 
robust and reliable intelligence when they need it.
    S&T is also developing and delivering technologies that 
will enable border security and Coast Guard members to perform 
their current tasks more efficiently, effectively, and with a 
higher level of safety. Development of these tools, in many 
cases, is leveraged from the initial investment of other 
government agencies, such as the Department of Defense and the 
National Institutes of Justice, and then adapt it to fit the 
operational environment and functions of the several DHS 
security components.
    We are also developing near-term technologies to improve 
supply chain security and thus decrease screening frequency and 
simultaneously increasing our probability of detection against 
dangerous contraband. Using a system-of-systems approach, we 
are developing advanced sensor and communication technologies 
within a security architecture that encompasses the world's 
supply chain. Some of the technologies developed in this 
program will enable CBP officers to identify tampering events, 
their location, track the shipping containers, and ensure that 
alarm data is communicated reliably and securely.
    Consistent with H.R. 3916, we recognize that our technology 
effort needs to account for the affordability, life cycle 
costs, and the training costs. This way, if the procurement 
based on our new technology would be too expensive for the 
component or the operating costs too prohibitive, the decision 
to look for a new technology solution can be made early, before 
large acquisition buy programs are initiated, and before the 
federal, State, local, and tribal entities expend their 
precious resources.
    The basic research portfolio addresses long-term research 
and development needs in support of the DHS mission areas that 
will provide the Nation with an enduring capability in homeland 
security. The basic research program is focused on research 
projects that clearly contribute to the goals of S&T's DHS 
customers and is informed by the customer capability gaps 
identified in the Capstone IPTs.
    This type of focused, long-term research investment has the 
potential to lead to paradigm shifts in the Nation's homeland 
security capabilities. An example is in tunnel detection. This 
is a type of long-term, focused research effort that would be 
tackled in the basic research area. As you are probably aware, 
the threats posed by clandestine, underground tunneling along 
the border in order to smuggle persons and goods into the 
United States is a serious and growing concern. Tunnel 
detection was a priority capability gap identified in our 
Border Security IPT as well, and needing a technical solution. 
However, there are currently no promising near-term 
technologies to detect underground tunnels efficiently that 
supports the Border Patrol's operations. The detection of 
smuggling in these tunnels requires a combination of both 
direct and indirect methods to determine the shape, size, 
position of the tunnel, geophysical characteristics, and 
understanding of the various detection methods.
    The basic research area intends to study and characterize 
the geophysical characteristics of key border regions, examine 
the limitations of current detection methods, assist in 
advancing those detection methods, and examine the potential 
for new, complementary detection methods. This research and 
other new discovery is necessary so that future technology 
development of an effective tunnel detector will be possible. 
So, you can see how the basic research tunnel investment will 
directly support and be complementary to our transition and 
innovation R&D efforts.
    Our innovation portfolio supports a key goal to put 
advanced capabilities into the hands of our customers as soon 
as possible as well. This is a high-risk research area, as 
compared to the low-risk product transition area, but if 
successful can be a game changer and provide new and improved 
operational capability to our component customers. An example 
is another tunnel detection effort. We are exploring 
additional, novel approaches to tunnel detection, including 
experimenting with UAV-mounted digital, electromagnetic, and 
gravity gradiometers, to determine their effectiveness and 
reliability. If successful, this will provide a wide-area 
search capability for rapid tunnel detection, potentially 
suitable to the Border Patrol. This demonstration may fail, but 
if successful will be a great game changer in our ability to 
protect the border.
    Another innovative program includes DHS partnering with DOD 
and the ongoing global observer Joint Concept Technology 
Demonstrator, JCTD, which offers the potential for DHS to 
provide persistent, airborne, wide-area surveillance along our 
borders and coasts. In cooperation with CBP and the Coast 
Guard, S&T is planning a demonstration for employing maritime 
radar on an unmanned aircraft to detect and help prosecute 
drug-running boats off the Florida coast, for example--
    Mr. Mitchell. Could you wrap it up, Mr. Hooks?
    Mr. Hooks. Yes, sir. Sorry.
    In summary, DHS is dedicated to being a customer-focused, 
output-oriented organization. Thank you.
    Mr. Mitchell. Thank you. Mr. Kapos.
    [The prepared statement of Mr. Hooks follows:]
                 Prepared Statement of Robert R. Hooks
    Good morning, Chairman Wu, Congressman Gingrey and distinguished 
Members of the Subcommittee. I am Robert Hooks, and I am the Director 
of the Transition Portfolio for the Science and Technology Directorate 
of the Department of Homeland Security, and I am pleased to appear 
before you today to discuss successes that the Department of Homeland 
Security's Science and Technology Directorate has achieved with respect 
to technology solutions on our borders.
    As you are aware, Under Secretary Cohen is on travel and I am 
honored to appear before you in his place. Under Secretary Cohen asked 
me to express his appreciation and thanks to this committee, your 
staff, and the entire Congress, for the strong, bipartisan leadership 
and support you have given him and the men and women of the Science and 
Technology Directorate as we work to make the Nation safer.

Introduction to the DHS S&T Organization

    Nearly 14 months ago, with Congress' support, Under Secretary Cohen 
implemented a new organizational structure for the Science and 
Technology Directorate to make it customer focused and output oriented. 
Our customers are the operating components and directorates of DHS, and 
their stakeholders are the State, local and tribal governments, first 
responders and private sector entities. Our Science and Technology 
effort to deliver technology is primarily organized into three 
portfolios: Basic Research, Innovation, and Product Transition.

Introduction to the Basic Research Portfolio

    The Basic Research portfolio addresses long-term research and 
development needs in support of DHS mission areas that will provide the 
Nation with an enduring capability in homeland security. This type of 
focused, long-term research investment has the potential to lead to 
paradigm shifts in the Nation's homeland security capabilities.
    In support of this objective for long-term research and 
development, we are in the process of establishing additional 
university-based Centers of Excellence in critical homeland security 
mission areas, including a Center for Excellence for Border Security 
and Immigration and a Center of Excellence for Maritime, Island, and 
Extreme/Remote Environment Security. These centers will provide 
fundamental research to support the DHS goals of strengthening border 
security, maritime security, and interior immigration enforcement. 
These centers will also establish education programs in homeland 
security relevant to their specific mission areas. This will provide 
learning opportunities to support the development of the next 
generation of homeland security leaders. We are currently in the 
selection phase and expect to announce the institutions for the new 
Centers of Excellence this month.
    Tunnel Detection is an example of the type of focused, long-term 
research effort that we would tackle in the basic research area. As you 
are probably aware, the threats posed by clandestine underground 
tunneling along the border in order to smuggle persons and goods into 
the United States are a serious and growing concern. Detection of these 
smuggling tunnels requires a combination of both direct and indirect 
methods to determine the shape, size, and position of the tunnel, 
geophysical characteristics, and understanding of the various detection 
methods. If funded in fiscal year 2009, we intend to study and 
characterize the geophysical characteristics of key border regions, 
examine the limitations of current detection methods, assist in 
advancing those detection methods, and examine the potential for new 
complementary detection methods. The basic research tunnel investment 
will directly support and be complementary to our Transition and 
Innovation efforts.

Introduction to the Innovation Portfolio

    The Innovation portfolio--Homeland Security Advanced Research 
Project Agency (HSARPA)--supports a key goal of Under Secretary Cohen's 
to put advanced capabilities into the hands of our customers as soon as 
possible. Within the Innovation Portfolio, we have two overarching 
programs: High Impact Technology Solutions or HITS, and Homeland 
Innovative Prototypical Solutions or HIPS.
    HITS are designed to provide proof-of-concept solutions within one 
to three years that could result in high-payoff technology 
breakthroughs. An example of a HITS is the tunnel detection effort. 
While we are in the process of awarding a contract as a result of a 
Broad Agency Announcement soliciting additional novel approaches to 
tunnel detection, we are also experimenting with UAV mounted digital 
electromagnetic gradiometers to determine effectiveness and 
reliability. If successful, this would provide a wide area search 
capability for rapid tunnel detection. This is high risk research, but 
if successful, can be a game-changer of new operational capability to 
our component customers and will complement our Transition and 
Innovation efforts.
    HIPS are designed to deliver prototype-level demonstrations of 
game-changing technologies within two to five years. An example within 
the HIPS portfolio is the SAFECON project which is focused on 
developing an advanced screening capability at ports of entry. Sensors 
mounted on a crane interrogate shipping containers as the crane engages 
and lifts the container off of the ship. The sensors detect and 
identify dangerous cargo without impact to the normal flow of commerce. 
Our goal is to detect and identify dangerous cargo within 45 seconds or 
less.

Introduction to the Product Transition Portfolio

    The Product Transition Portfolio, for which I am the Director, is 
centered on 11, functional, customer led, Capstone Integrated Product 
Teams (IPTs), three of which are Maritime Security, Cargo Security, and 
Border Security. In the Capstone IPTs, DHS operational components and 
directorates are the chairs or co-chairs and they define and prioritize 
capability gaps, then S&T offers technical solutions, and the customers 
are the final approval on if the offered technical solution is 
appropriate.
    Specific to border security, our Border Security Capstone IPT is 
co-chaired by David Aguilar, Chief of the Border Patrol, and Luke 
McCormack, Chief Information Officer of Immigration and Customs 
Enforcement (ICE). For Cargo Security, Jayson Ahern, Former Assistant 
Commissioner for CBP's Office of Field Operations (OFO), was the 
original chair. His successor is Tom Winkowski, CBP's New Assistant 
Commissioner for Office of Field Operations. For Maritime Security, 
Rear Admiral Ron Hewitt, USCG, was the original chair. His successor is 
Rear Admiral Robert Parker, USCG, Assistant Commandant for Capability 
(CG-7).
    While we have identified the principal stakeholders within the 
Capstone IPTs as chairs or co-chairs, they are not the only customer 
representatives to the IPTs. All DHS operational components and 
directorates are invited as customers to any Capstone IPT relevant to 
their mission. As an example, because of the inter-relationship within 
their respective geographic areas of responsibility, Coast Guard has 
representation on the Borders IPT, TSA, and DHS Policy office have 
representation on the Cargo IPT, and, CBP and ICE have representation 
on the Maritime Security IPT. Directed by the priorities of the Border, 
Cargo, and Maritime Security Capstone IPTs, we are developing 
technologies that can be delivered to the components in three years or 
less to assist in securing our maritime and land borders, and protect 
our Customs and Border Protection and Coast Guard law enforcement 
officers.

Introduction to the Borders and Maritime Security Division

    The Borders and Maritime Security Division oversees the delivery of 
technologies to provide advanced detection, identification, 
apprehension and enforcement capabilities along land and maritime 
borders, and provide advanced technology spiral-development 
``injections'' into the following program areas: Secure Border 
Initiative Network (SBI Net), Command 21, Secure Freight Initiative, 
Container Security Initiative, and Customs Trade Partnership Against 
Terrorism (C-TPAT).

Borders and Maritime Technologies Programs

    A number of our programs focus on developing Detection, 
Classification, and Localization (DCL) sensor technologies to monitor 
illegal border activity with a wider range and greater accuracy than 
present-day technologies; command and control systems that deliver a 
much broader amount of information about current events to different 
levels of law enforcement; communications systems that provide 
connectivity to law enforcement officers working in remote locations; 
and modeling and simulation tools to help border enforcement agencies 
make informed improvements in immigration and border security policy 
and operations, as well as investments in technology, complex systems 
and infrastructure. These technologies and systems will help to ensure 
that maritime and border security assets are used efficiently and 
effectively and enable law enforcement to have access to robust and 
reliable intelligence when they need it.

Unmanned Aircraft for Border and Maritime Security Missions

    We are continuing to actively develop technologies that will permit 
routine operation of UAVs for border and maritime security missions 
within the National Airspace System. In conjunction with the FAA and 
the DOD, we are developing an FAA-validated simulation that will be 
used, starting in FY09, to evaluate automated sense and avoid systems, 
the key enabler for safe and routine unmanned aircraft flight. DHS S&T 
is also partnering with DOD in the ongoing Global Observer Joint 
Concept and Technology Demonstration (JCTD), which offers the potential 
for DHS to provide persistent, airborne, wide area surveillance along 
our borders and coasts.
    In cooperation with Customs and Border Protection and the Coast 
Guard, S&T is planning a demonstration for employing maritime radar on 
an unmanned aircraft to detect and help prosecute drug running boats 
off the Florida coast. We are actively pursuing, both outside DHS with 
the Departments of Commerce, Defense, and Transportation and inside DHS 
with CBP and the Coast Guard, the increased use of unmanned aircraft to 
secure our nation's borders and provide airborne capabilities for 
requirements that require extended station times.

Border Officer Tools Program

    The officer tools and safety effort is developing and delivering 
technologies that will enable border security and Coast Guard members 
to perform their current tasks more efficiency, effectively, and with a 
higher level of safety. Development of these tools in many cases is 
leveraged from the initial investments of other government agencies, 
and then adapted to fit the operational environment and functions of 
several DHS security components. Where possible, technology is 
leveraged to support multiple DHS components. For example, the program 
will provide Coast Guard boarding officers with tools they carry onto 
vessels to perform inspections, which could be applied to CBP searches 
of over-the-road transportation. We are also developing tools that can 
be used by multiple DHS components to rapidly search vessels or 
vehicles, locate any hidden compartments, discriminate legitimate cargo 
from contraband, and remotely attain a positive identification of a 
person. We have recently developed and are not testing a pre-
acquisition prototype of a repeater-based communications system that 
permits communication among boarding team members, no matter where they 
are in a ship. Repeaters are small transmission devices that are 
deployed like breadcrumbs as boarding officers enter and search a ship. 
The repeaters provide 100 percent connectivity between boarding team 
members in areas that previously allowed less than 50 percent 
connectivity without repeaters. In the future, we plan to make 
available a deployable communications repeater for boarding teams.

Cargo Security Efforts and Programs

    Through our SAFECON (safe container) HIPS project, we are 
researching ways to quickly screen cargo at ports of entry. As a 
complement, we are also looking to improve supply chain security and 
thus decrease screening frequency and simultaneously increasing our 
probability of detection of dangerous contraband. Using a system-of-
systems approach, we are developing advanced sensor and communication 
technologies within a security architecture that encompasses the 
world's supply chain. Some technologies developed in this program will 
enable CBP officers to identify tampering events and their location, 
track shipping containers, and ensure that alarm data is communicated 
reliably and securely. Most of these technologies will be 
commercialized, purchased by industry and adopted as an international 
standard that will meet DHS's core security requirements. Current 
project activities include the Advanced Container Security Device 
(ACSD), an in-container sensor to detect and warn of intrusion on any 
six sides, door openings or the presence of human cargo; Container 
Security Device (CSD), a small, low-cost sensor mounted within a 
container to detect and warn of the opening or removal of a container 
door; Marine Asset Tag Tracking System (MATTS), a remote and adaptive 
multi-modal global communications and tracking tag for transmitting 
security alert information from ISO shipping containers; Hybrid 
Composite Container, a potential next-generation, ISO approved, 
shipping container with embedded security sensors to detect intrusions 
that is more than 15 percent lighter than existing ISO steel containers 
and more durable; Advanced Screening and Targeting, a project that 
develops computer algorithms and software that will automatically 
collect, combine, analyze and find suspicious patterns in the shipping 
information of containers; and Supply Chain Security Architecture 
(SCSA), a framework for how near-term and future container-security 
technologies that will be incorporated by industry into supply chain 
security operations and how information can be communicated securely to 
CBP officer.

Technology Transition Process: Customer Focused and Output Oriented

    As we develop these technologies, we recognize we need a 
disciplined process to ensure the technology is turned into widely 
distributed and utilized products and capabilities. Once the Capstone 
IPTs approve technical solutions, project level IPTs--S&T program 
managers working with component-customer program managers--are 
established to turn the proposed technical solutions into deliverable 
technology that is affordable and meets the customer's schedule and 
performance requirements. Through signed Technology Transition 
Agreements, S&T and our customers define and agree on schedule, 
performance requirements, transition paths, organizational 
responsibilities, integration strategy, technology transition readiness 
level, and estimated procurement, operating and support cost up front. 
This way, if initial procurement is too expensive, or operating costs 
are prohibitive, the decision to look for a new technology solution can 
be made early--before large buy acquisition programs are initiated and 
before federal, State, local, and tribal entities expend their precious 
resources.

Conclusion

    In summary, DHS S&T is dedicated to being a customer focused, 
output oriented organization. Through the Capstone IPT process, our 
customers prioritize and decide on the incremental technology 
improvements most important to them. Informed by the Capstone IPTs, our 
basic research and innovation efforts provide the focused, protracted 
research and high impact advanced research for longer-term game 
changing technology solutions. We are dedicated to providing our 
customers--the DHS components and directorates, State, local and tribal 
governments, first responders and private sector entities--the 
technology necessary to succeed at their mission and protect our 
nation. That concludes my statement for the record. On behalf of Under 
Secretary Cohen, thank you for your support of the Science and 
Technology Directorate, and I welcome your questions. Thank you.

                     Biography for Robert R. Hooks
    Robert Hooks serves as the Director of Transition, in the Science 
and Technology Directorate of the Department of Homeland Security. In 
this role, Mr. Hooks is responsible for delivering near-term advanced 
technologies to the operational components of the Department to address 
their priority mission capability gap areas. Mr. Hooks communicates 
regularly with the component agencies of the Department to understand 
capability gaps and propose appropriate technology solutions that can 
transition into future component acquisition programs. Mr. Hooks then 
shares these desired technology solutions with other U.S. Government 
agencies, the private sector and International partners to identify the 
most appropriate providers. In addition, Mr. Hooks oversees the 
Department's SAFETY Act program which provides important legal 
liability protection to qualified Anti-Terrorism technologies, whether 
they are products or services.
    Previously, Mr. Hooks served as the Chief of Staff for the Science 
and Technology Directorate and was responsible for the day-to-day 
management of the Directorate. He has also served as the Deputy 
Director in the Office of Research and Development where he oversaw the 
research, development, test and evaluation programs that were executed 
at the DHS federal laboratories, including the National Biological 
Analysis and Countermeasures Center, the Plum Island Animal Disease 
Center, the Transportation Security Lab, as well as within the Homeland 
Security elements of the DOE national laboratories. He oversaw the 
Homeland Security Stewardship Initiative, which included facilities 
construction and recapitalization, strategic partnerships with other 
government agencies, and Homeland Security focused workforce 
development and education programs that included a Scholars/Fellows 
Program and an integrated network of Homeland Security University 
Centers of Excellence.
    Prior to joining the Department of Homeland Security in July 2003, 
Mr. Hooks served 20 years in the U.S. Navy in a variety of positions as 
a submarine officer, financial analyst, intelligence analyst, and 
personnel specialist. Mr. Hooks was the Contingency Budget Analyst in 
the Navy Budget Office where he was responsible for the Department of 
Navy's funding of military readiness and operations following the 
September 11th attacks and the wars against Afghanistan and Iraq. His 
sea tours were on both fast attack and ballistic missile submarines and 
included overseas deployments, special missions, and six Trident 
strategic deterrent patrols during the Cold War. He also served as an 
intelligence analyst for special programs at the National Security 
Agency where he authored several strategic intelligence assessments.
    Mr. Hooks graduated from Cornell University with a Bachelor's of 
Science degree in Agricultural Engineering. He also holds a Master's of 
Administrative Science in Financial Management from The Johns Hopkins 
University. He was selected to the Senior Executive Service in 
September 2005.

 STATEMENT OF MR. ERVIN KAPOS, DIRECTOR, OPERATIONS ANALYSIS, 
  SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
  SECURITY; EXECUTIVE DIRECTOR, HOMELAND SECURITY SCIENCE AND 
             TECHNOLOGY ADVISORY COMMITTEE (HSSTAC)

    Mr. Kapos. Good morning, Chairman Mitchell, Congressmen 
Gingrey and Hall, and other Members of the Committee. I am 
Ervin Kapos, Director of Operations Analysis for the Science 
and Technology Directorate of the Department of Homeland 
Security, and I am pleased to appear before you today to 
discuss my responsibilities concerning the oversight of the 
Homeland Security's Science and Technology Advisory Committee. 
And I must express my gratitude for somebody having introduced 
into the record its informal name, the HSSTAC, so I don't have 
to trip over its full name.
    The HSSTAC was originally authorized in Section 311 of the 
Homeland Security Act for a period of three years, expiring on 
November 25, 2005. In October 2006, Section 302 of the Safe 
Port Act, and under Section 311 of the Homeland Security Act, 
reauthorizing the HSSTAC until December 31, 2008. The HSSTAC is 
chartered to be a source of independent scientific and 
technical planning advice for the Under Secretary for Science 
and Technology, with several objectives.
    First, the committee advises the Under Secretary for S&T on 
organization of the Nation's scientific and technological 
resources, to prevent or mitigate the effects of catastrophic 
terrorism against the United States, and of catastrophic 
natural events. Second, it identifies research areas of 
potential importance to the security of the Nation, including 
matters relating to science, technology, research, engineering, 
new product development, including demonstration and 
deployment, business processes, emergency response, cargo 
security, technology, and other matters of special interest to 
the Department of Homeland Security.
    Third, the HSSTAC assists the Under Secretary in 
establishing mission goals for the future. It advises on 
whether the policies, actions, management processes, and 
organizational constructs of the Science and Technology 
Directorate are focused on mission objectives. It advises on 
whether the research, development, test evaluation, and systems 
engineering activities are properly resourced to accomplish the 
objectives. It also identifies outreach activities and reviews 
the technical quality and relevance of the Directorate's 
programs.
    Finally, upon request, the HSSTAC provides scientifically- 
and technically-based advice to the Homeland Security Advisory 
Council. Conversely, the committee draws, when needed, on the 
expertise of outside advisory groups for independent advice on 
specific technical and policy matters.
    The HSSTAC has changed its modus operandi in the past year. 
It is now focused predominantly on certain high-priority issues 
that the Under Secretary has identified for it. At present, the 
HSSTAC is tasked with reviewing the threat that is expected 
from improvised explosive devices, IEDs, in the United States 
in the next five and more years, and recommending Science and 
Technology investments to counter this threat in the future.
    I believe, as does Mr. Cohen, that the HSSTAC provides the 
S&T Directorate valuable, independent, scientific and technical 
planning advice. We appreciate and support your efforts to 
extend the HSSTAC authority to 2012. Under Secretary Cohen 
appreciates your support of the S&T Directorate.
    I shall welcome your questions. Thank you very much.
    Mr. Mitchell. Thank you. Dr. Jackson.
    [The prepared statement of Mr. Kapos follows:]
                   Prepared Statement of Ervin Kapos
    Good morning, Chairman Wu, Congressman Gingrey and distinguished 
Members of the Subcommittee. I am Ervin Kapos, Director of the 
Operations and Analysis Division for the Science and Technology (S&T) 
Directorate of the Department of Homeland Security, and I am pleased to 
appear before you today to discuss my responsibilities concerning the 
oversight of the Homeland Security Science and Technology Advisory 
Committee (HSSTAC).
    The HSSTAC was originally authorized in Section 311 of the Homeland 
Security Act (P.L. 107-296) for a period of three years, expiring on 
November 25, 2005. In October 2006, Section 302 of the SAFE Port Act 
(P.L. 109-347) amended section 311 of the Homeland Security Act 
reauthorizing the HSSTAC until December 31, 2008.
    The HSSTAC is chartered to be a source of independent scientific 
and technical planning advice for the Under Secretary for S&T with 
several objectives. First, the Committee advises the Under Secretary 
for S&T on organizing the Nation's scientific and technological 
resources to prevent or mitigate the effects of catastrophic terrorism 
against the United States, and of catastrophic natural events.
    Second, it identifies research areas of potential importance to the 
security of the Nation, including matters relating to science, 
technology, research, engineering, new product development (including 
demonstration and deployment), business processes, emergency response, 
cargo security technology, and other matters of special interest to the 
Department of Homeland Security.
    Third, the HSSTAC assists the Under Secretary in establishing 
mission goals for the future. It advises on whether the policies, 
actions, management processes, and organization constructs of the 
Science and Technology Directorate are focused on mission objectives. 
It advises on whether the research, development, test, evaluation, and 
systems engineering activities are properly resourced to accomplish the 
objectives. It also identifies outreach activities and reviews the 
technical quality and relevance of the Directorate's programs.
    Finally, upon request the HSSTAC provides scientifically- and 
technically-based advice to the Homeland Security Advisory Council. 
Conversely, the Committee draws, when needed, on the expertise of 
outside advisory groups for independent advice on specific technical 
and policy matters.
    At present, the HSSTAC is tasked with reviewing the threat that is 
expected from Improvised Explosive Devices (IED) in the United States 
in the next five and more years, and recommending Science and 
Technology investments to counter this threat in the future. I believe, 
as does Mr. Cohen, that the HSSTAC provides the S&T Directorate 
valuable, independent scientific and technical planning advice. We 
appreciate and support your efforts to extend the HSSTAC Authority to 
2012. Under Secretary Cohen appreciates your support of the S&T 
Directorate, and I welcome your questions. Thank you.

                       Biography for Ervin Kapos

Introduction

    Mr. Kapos was born in Transylvania (Romania) in 1931, and lived in 
Cyprus from 1938 to 1950. He then came to the United States and 
attended Indiana University, studying mathematics at both the 
undergraduate and graduate levels for eight years, before moving to the 
Washington, D.C. area. He now lives in McLean, Virginia, with his wife 
June, a professional potter; their daughter Valerie, a tropical 
botanist, lives in Cambridge, England, with her husband and two 
daughters. Mr. Kapos was a Founding Director of MORS in 1966, Vice 
President and a member of the Council on Military Operations Research 
Symposia, and was a Chartering Officer for MAS, the Military 
Applications Section (now a Society).

Education

    Mr. Kapos completed a B.A. in Mathematics at Indiana University in 
1954 and completed Ph.D. course work in Mathematics, also at Indiana 
University. At Indiana University, Mr. Kapos was a Teaching Associate 
in the Department of Mathematics and a Research Associate in the 
Institute of Educational Research.

Experience

    Mr. Kapos joined the Navy's Operations Evaluation Group (OEG) 
(later an element of the Center for Naval Analysis) in 1958, 
immediately after leaving graduate school and remained there for almost 
15 years. He served several tours as an analyst in the fleet, mainly 
with Pacific Fleet Commands, including OPTEVFORPAC, First Fleet, and 
CINCPACFLT. He also established and directed first-of-their-kind 
operations analysis programs in Command and Control and in Operational 
Intelligence. During the period from 1967 to 1972, he was successively 
Director of CNA's Southeast Asia Combat Analysis Division, Marine Corps 
Operations Analysis Group, and Operations Evaluation Group.
    Mr. Kapos was senior OEG Representative on the staff of the 
Commander-in-Chief, Pacific Fleet, Commander, First Fleet, and the 
Commander, Operational Test and Evaluation Force. He conducted 
extensive analyses of combat operations in Southeast Asia, 
concentrating on the effectiveness of air and surface interdiction and 
on techniques of defense suppression. Other efforts involved test and 
exercise design, reconstruction and analysis in a variety of naval 
warfare and support areas, but with particularly heavy emphasis on 
communications, command and control. Mr. Kapos also developed a unique 
concept of intelligence analysis that culminated in a major Navy-
supported study program know as ``Red Side Operations Analysis.''
    Mr. Kapos was Director of the Marine Corps Operations Analysis 
Group, CNA. He managed the principal operational and systems analysis 
organization supporting the Commandant, U.S. Marine Corps and the Fleet 
Marine Forces. Earlier, Mr. Kapos was Director of the Southeast Asia 
Combat Analysis Division and directed analyses of the operations and 
effectiveness of Naval forces in Southeast Asia. Before that he was 
Leader of the Communications, Command and Control Team, where he 
pioneered the application of operations analysis in those areas.
    Mr. Kapos was Director of the OEG for three years. He managed 
almost 100 civilians and military analysts. Programs included a field 
organization of 40 professionals at about 30 Navy operating commands, 
and a headquarters analysis effort totaling about 60 professionals that 
covered the range of Navy warfare and support disciplines.
    Joining Ketron, Inc. in late 1972 as Vice President and Director of 
Washington Operations, Mr. Kapos became Executive Vice President in 
1976 and President in 1980. He was personally involved in many of the 
naval warfare and support studies carried out in Ketron. He was most 
heavily engaged in analytical support to planning studies affecting 
naval surface warfare and command support, evolving concepts and 
objectives for tactical development and evaluation in the Navy, new 
concepts for readiness evaluation, the application of operations 
analysis to problems in operational intelligence, and the development 
of new approaches to the use of gaming and simulation for command and 
management training.
    He was the founding principal and President of Kapos Associates 
Inc. (KAI) from 1984 to 2000. In KAI, Mr. Kapos evolved a complex, 
integrated program structure of policy studies, operational analysis 
and executive level gaming that, while initially focused on naval 
issues, also served clients up to Cabinet level, including various 
interagency bodies, executive departments, military services, and 
regional commands, as well as the private sector. In substantive 
content, the projects he pioneered and directed ran the gamut of 
interagency coordination, crisis response and consequence management; 
both counter- and anti-terrorism; modeling and simulation; maritime, 
land and aerospace warfare mission areas; special operations, weapons 
of mass destruction, military operations other than war; readiness 
assessment and reporting, command and control, operational logistics, 
manpower requirements, and war-gaming.
    Mr. Kapos has been Director of the Operations Analysis Program in 
the Office of Naval Research (ONR) since 2001. The program is intended 
both to establish OA as a tool for management decision-making in ONR 
and thus an internal service function, and to provide solutions to 
problems in analytical methodology that obstruct the application of OA 
in such key areas as readiness assessment, command and control, force 
protection, and experimentation.

Other Professional Experience, Honors

    He received the Secretary of the Navy's Meritorious Public Service 
Citation as well as numerous letters of commendation from the Naval 
Fleet and Force Commanders. Mr. Kapos has been an Associate Member of 
the Defense Science Board, serving on the Naval Surface Warfare Panel 
in 1974-76, and the Summer Study on Training and Training Technology in 
1982. In 1987-1988, he was a member of the DSB Task Force on Computer 
Applications to Training and War-gaming. He has been a member of the 
National Academy of Science/National Research Council Panel on Response 
to Casualties involving Ship-Borne Cargoes. Mr. Kapos also served on 
the National Security Agency Advisory Board in 1979-1982. He served on 
the Panel on Science and Technology and Center for Strategic and 
International Studies (CSIS), and was a member of the Panel on Crisis 
Management at CSIS.

STATEMENT OF DR. BRIAN A. JACKSON, ASSOCIATE DIRECTOR, HOMELAND 
        SECURITY RESEARCH PROGRAM, THE RAND CORPORATION

    Dr. Jackson. Thanks very much. Chairman and distinguished 
Members, I thank you for inviting me to participate in today's 
hearing.
    I was asked to testify specifically about a recently-
completed RAND research project that was supported by the 
Department of Homeland Security's Science and Technology 
Directorate that looked at how adversaries, terrorist groups in 
particular, can undermine the effectiveness of security 
technologies by altering their behavior. The way such groups 
have responded to defensive measures is similar to how others 
who seek to cross the border illegally can and have responded 
to security efforts, making the lessons that the terrorist 
groups can teach us very relevant to today's discussion about 
future border security technologies.
    The core message of my testimony today is that we must 
explicitly consider the risks that adversaries' adaptive 
behavior poses to the performance of our border security 
technologies when we craft our research and development plans. 
If we don't do so, we risk spending resources on defenses that 
ultimately will not deliver the protection that we expect them 
to.
    Looking across a variety of terrorist groups, we found that 
when challenged by security efforts, they responded with a set 
of four counterstrategies that limited the effects that the 
defenses had on the groups' operations. Specifically, they 
changed their operational practices in ways that made the 
defenses less effective. They used new technologies of their 
own to counter them. They moved to alter or to avoid the 
defensive measures, and they attacked the security technologies 
directly.
    My written testimony and the research underlying it 
document numerous examples of counter technology strategies 
that these groups put in place, but what we found overall is 
that, for most defensive measures, the groups could find ways 
to degrade their protective value. In some cases, the groups 
paid a significant price to get around defensive measures. For 
example, to evade border controls and the security fence being 
put around the Israeli border, Palestinian groups had to 
develop specialized ladders that could let them get over 
without triggering the detection technologies on top, or had to 
build elaborate tunnel systems to get under it, as we have 
heard is a challenge at our border. In other cases, the price 
to evade defensive measures was relatively small. For example, 
the Irish Republican Army determined that under some 
circumstances at least an expensive surveillance and facial 
recognition system could be defeated by having their operatives 
wear inexpensive baseball caps.
    Given what we found, we identified three principles that 
should be considered as next-generation measures are designed 
and implemented. The first is that there needs to be extensive 
testing of the robustness of new security measures before they 
are introduced. Focused red-teaming efforts, challenging the 
technologies with teams of capable individuals to see if we can 
discover new ways to penetrate them, is one way to do that 
assessment. Such red-teaming is accepted practice in many 
technology development efforts, but our study further 
emphasized how important it is. The need to assess new 
technologies' weaknesses also suggests that small-scale 
demonstration projects may be particularly valuable steps to 
include in technology programs whenever possible before 
expanding to large-scale demonstrations or technology 
deployment, particularly given the extensive border security 
protection challenge that we face in this country.
    A second principle is that we should preserve as much 
flexibility as we can in the technologies that we deploy. 
Systems that aren't locked into specific modes of operation 
preserve the ability of border security organizations to 
respond when adversaries change their behavior. Explicitly 
considering the value of this flexibility as we assess new 
technologies is important, since flexible technologies may cost 
more than systems that are locked into only one operational 
mode. If we don't consider the value of that flexibility, it 
may be inadvertently sacrificed to cut costs.
    The final principle is that the Nation should maintain a 
diverse and flexible border security research, development, 
tests, and evaluation portfolio. If we devote all our resources 
to optimizing a single line of defense, there may be no backup 
available if that line is breached. Even if multiple defensive 
options are not all deployed, a portfolio approach to 
developing measures can provide fallback options if an initial 
defense becomes obsolete.
    Depending on the level of the adaptive threat we face, the 
Nation might actually be better off having multiple defensive 
options of average effectiveness than concentrating on raising 
the performance of a single technology to the highest 
effectiveness possible, in terms of thinking about this as an 
overall system.
    When faced with an adaptive challenge, the bottom line from 
our work is that we need to be prepared to adapt in return. The 
potential that adversaries might break through a defense soon 
after its introduction must be carefully assessed and included 
in our decision-making. Not doing so risks making large 
investments whose eventual benefits may not justify their 
costs. In designing protective measures, it shouldn't be 
immediately assumed that the newest and most advanced 
technologies give us the best protection. Sort of going to our 
title of our report, drawing on the common metaphor for defense 
efforts of building a fortress, relying on formidable but 
static defensive measures is a rather fragile and tenuous 
strategy, because once a wall is breached, there may not be 
anything left to protect you.
    Depending on the adaptive capabilities of the adversary, a 
defensive model built on variety, where we have a number of 
security measures that can be adjusted and redeployed as their 
vulnerable points are discovered, is a superior approach.
    I would like to thank you again for the opportunity to 
address the committee, and look forward to your questions.
    Mr. Mitchell. Thank you. Chief Self.
    [The prepared statement of Dr. Jackson follows:]
               Prepared Statement of Brian A. Jackson\1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. The series records testimony 
presented by RAND associates to federal, State, or local legislative 
committees; government-appointed commissions and panels; and private 
review and oversight bodies. The RAND Corporation is a nonprofit 
research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------

   Developing Robust Border Security Technologies to Protect Against 
                    Diverse and Adaptive Threats\2\
---------------------------------------------------------------------------

    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/294/
---------------------------------------------------------------------------
    Chairman and distinguished Members: Thank you for inviting me to 
speak on the issue of border security technology as the House Science 
and Technology Committee begins the process of considering legislation 
focused on developing the next generation of border and maritime 
security technologies. I was asked to provide testimony about a 
recently completed RAND research effort for the U.S. Department of 
Homeland Security, Science and Technology Directorate, Office of 
Comparative Studies, focusing on the role of technology in homeland 
security activities.\3\ As part of homeland security efforts, 
technology systems play a key role within a larger, integrated strategy 
to counter the efforts of violent and criminal organizations and to 
protect the public. Information and detection technologies gather data 
on individuals, vehicles, and behaviors; are used to monitor sites and 
areas of concern (including border information systems aimed at 
identifying individuals who should be not allowed to enter the 
country); help detect concealed weapons or contraband; and manage 
collected information so such information can be drawn on later to 
guide security decisions. Technologies such as barriers and setbacks 
harden targets or deny individuals access to the areas they want to 
enter or attack. Technologies such as communication systems coordinate 
response activities to increase the chances that terrorist or other 
illegal activities can be interdicted and stopped.
---------------------------------------------------------------------------
    \3\ The results of this research effort have been published in a 
series of RAND reports focusing on the use of technology by terrorist 
groups and security organizations combating terrorism: Breaching the 
Fortress Wall: Understanding Efforts to Overcome Defensive 
Technologies, Brian A. Jackson et al., RAND MG-481-DHS, 2007, available 
at http://www.rand.org/pubs/monographs/MG481/; Sharing the Dragon's 
Teeth: Terrorist Groups and the Exchange of New Technologies, Kim 
Cragin et al., RAND MG-485-DHS, 2007, available at http://www.rand.org/
pubs/monographs/MG485/; Stealing the Sword: Limiting Terrorist Use of 
Advanced Conventional Weapons, James Bonomo et al., RAND MG-510-DHS, 
2007, available at http://www.rand.org/pubs/monographs/MG510/; Network 
Technologies for Networked Terrorists: Assessing the Value of 
Information and Communication Technologies to Modern Terrorist 
Organizations, Bruce W. Don et al., RAND TR-454-DHS, 2007, available at 
http://www.rand.org/pubs/technical--reports/TR454/; Freedom and 
Information: Assessing Publicly Available Data Regarding U.S. 
Transportation Infrastructure Security, Eric Landree, et al., RAND TR-
360-DHS, 2007, available at http://www.rand.org/pubs/
technical<INF>-</INF>reports/TR360/
---------------------------------------------------------------------------
    Our work has examined security technologies in the context of long-
term conflicts between law enforcement and security organizations and 
terrorist groups. Much of this research focused on how the 
effectiveness of security technologies can degrade as our adversaries 
adapt and alter their behavior in response to the introduction of 
defensive measures.\4\ That adaptive behavior can pose a significant 
risk to the security benefits new defensive technologies are intended 
to provide and, therefore, must be considered in technology planning. 
The testimony provided today is drawn from this research and focuses on 
the parts of the study that specifically address technologies relevant 
to border security.\5\
---------------------------------------------------------------------------
    \4\ See Breaching the Fortress Wall: Understanding Efforts to 
Overcome Defensive Technologies, Brian A. Jackson, et al., RAND MG-481-
DHS, 2007, available at http://www.rand.org/pubs/monographs/MG481/
    \5\ While these remarks draw both on my work and that of my co-
authors and colleagues, the specific content of my testimony is my 
responsibility alone. Additional information on RAND's research 
relevant to border security challenges is included in Michael A. 
Wermuth and K. Jack Riley, ``The Strategic Challenge of Border 
Security,'' Testimony before the Committee on Homeland Security, 
Subcommittee on Border, Maritime and Global Counterterrorism, U.S. 
House of Representatives, March 8, 2007, available at http://
www.rand.org/pubs/testimonies/CT275/
---------------------------------------------------------------------------
    Although preventing a terrorist attack is one reason for the 
security measures at our nation's borders, it is not the only goal 
those measures are intended to achieve.\6\ It is estimated that several 
hundred thousand individuals enter the United States illegally each 
year.\7\ Most people seeking to cross the U.S. border illegally are not 
doing so to conduct terrorist activities. Rather, they are seeking to 
enter the country themselves, smuggle drugs, move other illicit goods, 
or engage in human trafficking. The shipping of illicit cargo through 
legitimate means--e.g., through the container shipping system--is also 
a concern. Although such individuals and groups are not motivated by 
the same factors as terrorist groups, they are nonetheless similarly 
determined to succeed and will respond to defensive measures placed in 
their path to hinder them. As a result, the broader lessons we 
identified about designing technologies that are robust to terrorist 
group adaptation are similarly relevant to the other challenges and 
threats that border protections are designed to address.
---------------------------------------------------------------------------
    \6\ U.S. Customs and Border Protection, Office of Border Patrol, 
``National Border Patrol Strategy,'' undated.
    \7\ See, for example, estimates in Government Accountability 
Office, ``Illegal Immigration: Border-Crossing Deaths Have Doubled 
Since 1995; Border Patrol's Efforts to Prevent Deaths Have Not Been 
Fully Evaluated,'' GAO-06-770, August 2006.
---------------------------------------------------------------------------
    The core message of my testimony today is that in our technology 
planning and development we must explicitly consider the risk to the 
performance of our border security technologies that is posed by the 
competitive, action-reaction dynamic that exists between our security 
efforts and the adversaries they target; if we do not do so, we risk 
spending resources on defenses that ultimately will not deliver the 
protection we expect. To do so we must

        <bullet>  include testing, red-teaming, and experimentation in 
        technology development efforts to ensure new security measures 
        are robust to adversary adaptation

        <bullet>  maintain flexibility in our security technologies to 
        the extent possible so we can respond to changes in the 
        behavior of our adversaries that degrade or eliminate the 
        protection the systems provide

        <bullet>  ensure defense in depth by developing portfolios of 
        defensive measures that provide ``fall back'' options if 
        adversaries learn how to avoid our primary defensive systems

    Finally, although the focus of today's hearing is on developing 
technology, we must also remember that security is ensured not by 
technical systems alone but also by the organizations and people who 
use them and the concepts of operation that guide how they are used.\8\ 
How we use technologies is a key determiner of how vulnerable or robust 
technologies are to our adversaries' adaptive efforts and helps to 
determine the net security effect of adversaries' efforts to break 
through our defenses. As a result, how technologies will be used in 
border security efforts should be considered during technology planning 
and research roadmapping to make sure we capture the full set of 
factors that will define their future security performance.
---------------------------------------------------------------------------
    \8\ See, for example, David Aguilar, Office of Border Patrol, 
``Border Security: Infrastructure, Technology and the Human Element,'' 
Testimony Before the Subcommittee on Border, Maritime and Global 
Counterterrorism, Committee on Homeland Security, U.S. House of 
Representatives, February 13, 2007; RADM David P. Pekoske, U.S. Coast 
Guard, ``Border Security: Infrastructure, Technology and the Human 
Element,'' Testimony Before the Subcommittee on Border, Maritime and 
Global Counterterrorism, Committee on Homeland Security, U.S. House of 
Representatives, February 13, 2007; and Jay Cohen and Gregory Giddens, 
Department of Homeland Security, ``How Can Technologies Help Secure Our 
Borders?'' Testimony Before the Committee on Science, U.S. House of 
Representatives, September 13, 2006.

How Can The Responses of Terrorist Groups or Other Adversaries Affect 
                    the Protective Value of Security Technologies?

    New security technologies are frequently costly, making it 
imperative that we ensure, to the extent possible, that they will 
produce enough benefits in improved security to justify the investments 
required to develop and deploy them. If there is a substantial risk 
that the security benefits of a particular technology will not be 
realized, that risk could make an otherwise promising technology a poor 
choice.
    In our research, we examined one such risk: How changes in behavior 
by terrorist groups could reduce or even eliminate the protective value 
of technological security measures. To identify how technologies were 
vulnerable to terrorist group adaptation, we looked at how a number of 
such organizations responded when they were challenged by new defensive 
measures. Because we were interested in lessons relevant to today's 
homeland security context, we examined four comparatively sophisticated 
terrorist groups that were in conflict with sophisticated states:

        <bullet>  Palestinian terrorist groups in Israel

        <bullet>  Jemaah Islamiyah (JI) and affiliated groups in 
        Southeast Asia

        <bullet>  Liberation Tigers of Tamil Eelam (LTTE) in Sri Lanka

        <bullet>  Provisional Irish Republican Army (PIRA) in the 
        United Kingdom

    We found that the groups responded to security measures put in 
place by states or across regions with a set of four counter-technology 
strategies to limit the effect of the defenses on their operations. 
Specifically, they changed their operational practices in ways that 
made the defenses less effective, used new technologies of their own to 
counter them, moved to avoid the defensive measures, and attacked the 
security technologies directly. U.S. experience with individuals and 
organizations seeking to cross our border illegally shows these same 
broad strategies are relevant to help design current efforts to secure 
the country and to develop the technological tools needed to do so.
    To illustrate the effect that groups changing their behavior has on 
the effectiveness of defensive measures, I discuss here a few of the 
ways the terrorist groups we studied reduced the effectiveness of 
protective technologies, circumvented the technologies entirely, and 
even attacked or corrupted the defensive measures that were getting in 
their way.
    In many cases, terrorist groups found ways to change their behavior 
to render protective measures less effective. For example, the majority 
of the four terrorist groups responded to weapons-detection 
technologies by breaking down their weapons materials into small 
quantities (such as smuggling explosives in toothpaste tubes or cookie 
tins) or otherwise shielding them from detection technologies to enable 
smuggling or attack operations. The various ways they did this included 
shipping explosives obscured by strong-smelling spices or hiding them 
in noxious cargoes like rotting fish to conceal their odor from dogs or 
confuse other detectors.
    PIRA spent considerable time conducting ``challenge-response'' 
studies to determine the limitations of surveillance systems in an 
effort to learn what the systems could and could not detect and to 
assess the areas they covered. The group then used that knowledge to 
operate in ways and at times that were less likely to be detected. For 
example, armed with the knowledge that specific weather and lighting 
conditions made some sensors less effective, PIRA planned its movements 
and operations accordingly.
    The strategies we discovered in our case studies are similarly 
relevant to the Nation's border security challenges. For example, in 
2004 testimony before the House Select Committee on Homeland Security, 
Lawrence Wein of Stanford University raised questions about whether 
terrorist groups could render the fingerprint biometric scanning done 
by the U.S. Visitor and Immigrant Status Indicator Technology (US-
VISIT) program less effective by selecting operatives whose 
fingerprints either will not scan well or have been deliberately 
altered to defeat the scanning.\9\ It is also well known that smugglers 
seeking to bring illegal narcotics and other materiel into the country 
frequently alter their operational practices to conceal their cargoes 
from search-and-detection approaches.
---------------------------------------------------------------------------
    \9\ Lawrence M. Wein, ``Disrupting Terrorist Travel: Safeguarding 
America's Borders Through Information Sharing,'' Testimony before the 
U.S. House of Representatives, Select Committee on Homeland Security, 
September 30, 2004.
---------------------------------------------------------------------------
    When they could do so, terrorist groups avoided defensive measures 
entirely, neutralizing their protective benefits. To avoid 
identification requirements and databases used to flag known or 
suspected operatives, most groups relied on false documents and 
identification credentials to hide the true history and identity of 
both people and vehicles. Some groups even took this strategy to the 
extreme, coercing innocent people with no connection to terrorism--by 
threatening their lives or the lives of their loved ones--to transport 
people or weapons through checkpoints with identity checks.
    Avoidance can work for surveillance systems as well: As part of 
Israeli security measures, overhead surveillance with unmanned aerial 
vehicles (UAVs) or helicopters were used to monitor areas near the 
border where attacks were staged. In rural areas, Palestinian groups 
used spotters on rooftops in the West Bank or Gaza Strip to watch for 
the vehicles and warn militants to stay out of sight when the 
surveillance systems were in the area.
    To avoid some defenses, groups had to make more drastic changes. In 
response to significantly strengthened border security at ports of 
entry in the nations where it operated, JI shifted its operations from 
seeking to move people and material through defended areas like 
airports to less monitored and defended maritime or land borders. In 
response to the security barrier erected around Israel, Palestinian 
groups reportedly deployed specially crafted ladders that enabled them 
to climb over the security fences without triggering the sensors at the 
top. In addition, the groups have also engaged in extensive tunneling 
to circumvent the barrier around Israel and border security between 
Egypt and Gaza, enabling weapons smuggling and infiltration. The 
Israeli Defense Force (IDF) notes that Palestinians have taken a number 
of measures to avoid having their tunneling operations detected, 
including building tunnels in residential areas (entrances are often 
through private homes and property), digging at night, transporting 
displaced dirt and sand out of the vicinity of the tunnels, and staging 
diversionary strikes against IDF outposts to conceal the sound of 
explosives.
    At our own border, individuals seeking to enter the United States 
illegally have responded to the deployment of border fencing in similar 
ways, for example by altering their routes and seeking to enter the 
country at more remote, unfenced locations. Drug smugglers have 
similarly shifted their routes and transport modes to avoid 
interdiction efforts.\10\ Tunneling under the barriers has also been 
observed.\11\
---------------------------------------------------------------------------
    \10\ See, for example, discussion in Office of National Drug 
Control Policy, ``Measuring the Deterrent Effect of Enforcement 
Operations on Drug Smuggling, 1991-1999,'' August 2001.
    \11\ See, for example, discussion in Blas Nunez-Neto and Stephen 
Vina, ``Border Security: Barriers Along the U.S. International 
Border,'' Congressional Research Service, RL33659, September 21, 2006.
---------------------------------------------------------------------------
    Finally, in some limited cases, terrorist groups simply attacked 
the defensive measures hindering their activities. In response to the 
extensive use of information systems in the counterterrorism effort 
against PIRA, the group sought to attack information systems directly 
to corrupt or steal information (at one point breaking into a police 
facility to steal files). The group also used information-gathering 
technologies such as the security organizations' own public tip line to 
inject false information into the system. The group also used hoax 
operations and triggered detection technologies to cause false alarms 
as ways to stress the capabilities of the security and response forces. 
In some cases, the groups we studied directly broke down barriers and 
defenses that got in their way, either by using larger bombs or by 
staging more complex operations to neutralize the defense before a 
larger attack took place. In response to the construction of fencing on 
the U.S. land border, similar efforts to damage or breach the barrier 
have been observed.\12\
---------------------------------------------------------------------------
    \12\ See, for example, discussion in Nunez-Neto and Vina, 2006.
---------------------------------------------------------------------------
    How important were terrorist efforts to ``learn their way around'' 
defensive measures? For most defensive measures, the groups could find 
ways to reduce their effectiveness and degrade their protective value. 
However, in some cases, terrorist groups paid a substantial price to 
neutralize a defense; for example, although a tunnel might make it 
possible to get under a security barrier, the effort the group had to 
spend to construct it was effort that could not be devoted to violent 
activities. When this was the case, even if the technology did not 
necessarily deliver the full protection it was expected to--or deliver 
it in the way that was expected when it was designed--its value could 
still be considerable.
    Then again, in other cases, the cost to the group to evade a 
defensive measure was relatively small; in one particularly dramatic 
case cited by a counterterrorism professional we interviewed, PIRA 
learned that a sophisticated surveillance system incorporating facial 
recognition technology could, under the right circumstances, be 
countered by simply wearing a baseball cap. In this case, it took the 
group very little effort to counter the technology.

Principles for Designing Defensive Technology Efforts

    Given the costs of designing and implementing novel border security 
technologies, it is important to consider the threat that adversary 
adaptation poses to their eventual effectiveness and value during 
research, development, test, and evaluation planning, and 
implementation.\13\ Looking across the terrorist groups we studied, we 
identified a number of principles that should be considered as next-
generation measures are designed and implemented. In some cases, what 
our review of historical terrorist group behavior had to teach us was 
``not news'': Some of the lessons merely reinforced the importance of 
principles already considered good practice in technology design and 
testing. However, in other cases, what they had to teach was less 
obvious. In all cases, the potential result of not learning the lessons 
is high: losing the opportunity to prevent terrorist attacks.
---------------------------------------------------------------------------
    \13\ Michael A. Wermuth and K. Jack Riley, ``The Strategic 
Challenge of Border Security,'' Testimony Before the Committee on 
Homeland Security, Subcommittee on Border, Maritime and Global 
Counterterrorism, U.S. House of Representatives, March 8, 2007, 
available at http://www.rand.org/pubs/testimonies/CT275/
---------------------------------------------------------------------------
The Importance of Testing and ``Red Teaming'' Technologies
    Terrorist groups' counter-technology efforts underscore the 
importance of extensively testing new security measures before they are 
introduced. To make sure new technologies will perform over time, 
designers need to assess what information adversaries would need to 
circumvent the technologies and identify how they might get access to 
that information. Can groups ``test'' a defense's capabilities by 
challenging it in different ways? If a measure's performance relies on 
keeping some details of its capabilities secret, how long can those 
secrets be kept? Furthermore, dedicated ``red teaming'' of new 
technologies--challenging them with teams of capable individuals to see 
if they can discover new ways to penetrate the security measures--is 
also critical. Such testing is established practice for many security 
technologies and measures. For example, when it comes to cyber 
security, companies routinely use ``hackers'' to challenge security 
measures the companies have put in place. The need to test new 
technologies and explore their possible weaknesses also suggests that 
small-scale technology demonstration projects and evaluation studies of 
promising technologies may be particularly valuable intermediate steps 
to include in technology programs whenever possible before they are 
expanded to larger-scale demonstration or technology-deployment 
efforts.

Maintaining Flexibility in Technology Design
    Given that adversaries will almost certainly find ways to degrade 
the performance of even the best security technologies, we should 
preserve as much flexibility as possible in the technologies we design 
and deploy. If the design of a defensive measure locks it in to a 
single configuration or operating mode, its benefits are vulnerable to 
changes in adversary behavior. If the security measure is static\14\, 
it will not be able to adjust to a dynamic threat. In contrast, if 
flexibility is built into the defense from the start--e.g., if, when a 
terrorist group ``breaks the code'' on how the defense functions, we 
can change the code and reconstitute performance--then the benefits 
provided by the defensive measure can be preserved. Just as the 
terrorists we studied were able to change their operational practices 
to get around defensive technologies--e.g., obscuring the signatures 
they were designed to detect, using deception, adjusting the speed or 
character of their operations--changes in operational practices could 
similarly provide a variety of strategies for altering the character of 
defensive systems. For example, maintaining the ability to redeploy 
surveillance systems or change how security forces respond to alarms 
from detection systems are ways that technological performance could be 
altered to respond to changes by adversaries.
---------------------------------------------------------------------------
    \14\ Depending on the security measure, the technological 
characteristics--e.g., the nature of a detection technology--could make 
it difficult or impossible to change in response to adaptation by an 
adversary. In other situations, the combination of technology and the 
way it is used-- e.g., including the concept of operations, etc.--could 
make it possible to respond to countermeasures.
---------------------------------------------------------------------------
    Systems that are flexible--that are not locked into specific modes 
of operation--preserve the opportunity for border security 
organizations to adapt their performance to respond to changes made by 
individuals and organizations seeking to enter the country illegally. 
Considering the value of this flexibility in the evaluation of 
potentially new technologies is important, since providing such 
flexibility may require additional expenditures up front when the 
defense is designed and implemented. If it is not considered, options 
that could provide robustness may be inadvertently sacrificed in an 
effort to reduce costs.
Developing Portfolios of Defensive Options for Defense in Depth
    The risk that adversaries will identify strategies to defeat or 
evade individual security measures also suggests that the United States 
should maintain a diverse and flexible border security research, 
development, test, and evaluation portfolio. If we devote all our 
resources to optimizing a single line of defense, there will be no 
backup available if that line is breached. This is one reason behind 
the idea of defense in depth--maintaining multiple lines of protection 
against high-risk threats.
    Security planners should consider a variety of defensive technology 
options, maintaining possibilities for alternative approaches if 
currently effective technologies are neutralized. Even if multiple 
defensive lines are not all deployed at the same time, a portfolio 
approach to developing defensive measures could provide ``fall back'' 
options if an initial defense becomes obsolete. Depending on the level 
of adaptive threat, the Nation could be better off having multiple 
defensive options of average effectiveness than a single highly 
effective option without a viable back-up. If decisions are made to 
pursue a specific path, the costs of maintaining other technologies in 
reserve--perhaps not fully developed, but at a stage at which they 
might be called on if needed--should be considered as well. Such an 
approach is analogous to maintaining a diversified portfolio of 
investments, containing a variety of options, where comparatively small 
investments provide various hedges against different shifts in 
circumstances. Small-scale technology demonstration projects and 
evaluation programs can also help to pursue this strategy, since they 
can provide a cost-effective way to explore multiple security options 
and assess their relative performance and robustness.

Conclusions

    When adversaries are successful in countering all or part of a 
defensive technology, the utility of the system may be significantly 
reduced or lost entirely. Such losses devalue the costs society pays to 
design, produce, field, use, and maintain the technology--where costs 
include not just financial and materiel costs but also less tangible 
costs such as reductions in privacy or the inconveniencing of 
individuals legitimately crossing U.S. borders, when such security 
measures are implemented. Given the scale of U.S. borders and the 
volume of individuals and goods that cross them everyday, those costs 
can be considerable.
    As a result, ``adaptive destruction'' is one more risk that must be 
managed by the science and technology programs charged with developing 
novel border security capabilities. The potential that adversaries 
might break through a defense soon after its introduction must be 
assessed and included in the cost-benefit analyses that provide the 
basis for going forward with large-scale technology testing and 
procurement. Not doing so may lead to major investments whose eventual 
benefits may not justify their costs. The robustness of new defensive 
technologies against adversary adaptation must be explicitly considered 
in crafting a technology roadmap for next-generation border security 
technologies and in efforts to deploy current technologies on the 
borders.
    Furthermore, although the focus of the discussion here is on 
technology, we must recognize how the technology choices we make affect 
the rest of the border security system and the how the interactions 
among the parts of that system shape the value of new technologies and 
defenses. Although an adversary's efforts to break through our defenses 
may be aimed at the technologies we use to protect ourselves, the 
impact of those efforts will be shaped by the concepts of operation 
around those technologies and the people charged with implementing 
them.
    For example, if a new detection technology produces many false 
alarms (magnified perhaps by individuals or smuggling organizations 
intentionally triggering the sensors to undermine the value of the 
system) can such false alarms be dealt with quickly or will responding 
to them consume human resources that could be put to better use in 
other ways? If migrants and smugglers respond to border fencing and 
surveillance by regularly damaging the fence and its associated 
systems, how will a constant stream of repair efforts affect DHS's 
security efforts? If the defenses we deploy simply result in 
displacement (e.g., individuals shift from crossing the border at one 
location to another) are we better off, worse off, or the same from a 
security perspective?\15\
---------------------------------------------------------------------------
    \15\ For example, diversion of illegal entry traffic from urban to 
rural areas has been characterized as beneficial from a security 
perspective, because individuals crossing the border in an urban area 
can vanish quickly into traffic, thus considerably reducing the time 
for apprehension. (David Aguilar, ``Border Security: Infrastructure, 
Technology and the Human Element,'' Testimony Before the Subcommittee 
on Border, Maritime and Global Counterterrorism, Committee on Homeland 
Security, U.S. House of Representatives, February 13, 2007.)
---------------------------------------------------------------------------
    The answers to these questions depend not just on technology but on 
how all the elements of the border system work together, and their 
answers will partly determine how much of a threat adversaries' 
counter-technology efforts pose to the country.
    Although technologies can provide an edge in protecting our 
borders, that edge can be dulled by adversaries' counter-technology 
efforts. An understanding of the way adversaries have responded to 
counter defensive technologies in the past underscores the complexity 
of designing new systems to protect society from the threat such 
adversaries pose. Our research suggests that, in designing protective 
measures, we should not immediately assume that the newest and most 
advanced technologies--the highest wall, the most sensitive 
surveillance--will provide the best protection. Drawing on common 
metaphors for defensive efforts, a fortress--relying on formidable but 
static defensive measures--is a limiting strategy. Once a wall is 
breached, the Nation is open to attack. Depending on the adaptive 
capabilities of the adversary, a defensive model built from a variety 
of security measures that can be adjusted and redeployed as their 
vulnerable points are discovered provides a superior approach. However, 
whatever combination of models and measures is chosen, it is only by 
exploring adversaries' potential counter-technology behaviors that 
vulnerabilities in current and potential future defensive measures can 
be discovered and addressed.
    I would like to thank you again for the opportunity to address the 
committee today on this important topic, and I look forward to 
answering any questions you might have.

                     Biography for Brian A. Jackson
    Brian A. Jackson is Associate Director of the Homeland Security 
research program at the RAND Corporation. His terrorism research has 
focused on tactical and operational learning by terrorist groups and 
terrorist groups' use of technology. Individual projects have developed 
approaches to assess the threat posed by potential terrorist use of 
specific weapons, examined of the strategies to respond to terrorist 
targeting of national economies, constructed terrorist attack scenarios 
to support policy analysis efforts, and examined emergency response 
strategies and incident management for responses to major disasters and 
terrorist attacks. Key publications in these areas include articles in 
Studies in Conflict and Terrorism and Military Review on technology 
adoption by terrorist organizations, terrorist organizational 
structures and behavior, and intelligence gathering for targeting 
terrorist and insurgent groups, as well as the RAND reports Aptitude 
for Destruction, Volumes 1 & 2, examining organizational learning in 
terrorist groups, Breaching the Fortress Wall: Understanding Terrorist 
Efforts to Overcome Defensive Technologies, and Volumes 1 and 3 of the 
RAND Protecting Emergency Responders series of publications. Brian 
holds a Ph.D. in bio-inorganic chemistry from the California Institute 
of Technology and a Master's degree from George Washington University 
in Science, Technology, and Public Policy.

   STATEMENT OF CHIEF JEFF SELF, DIVISION CHIEF, U.S. BORDER 
                             PATROL

    Mr. Self. Thank you, Chairman Gordon, for your opening 
remarks, Congressman Mitchell, Ranking Members Hall and 
Gingrey, and other distinguished Subcommittee Members.
    It is my honor to appear before you today to discuss the 
Office of Border Patrol's use of technology in securing the 
border. My name is Jeff Self. I am the Division Chief 
responsible for Southwest border operations for Customs and 
Border Protection's Office of Border Patrol.
    The United State's Border Patrol is a component of the 
Department of Homeland Security, DHS, U.S. Customs and Border 
Protection. I would like to begin by giving you a brief 
overview of agency and mission. Since 1924, the Border Patrol 
has grown from a handful of mounted agents patrolling desolate 
areas along the U.S. border to today's highly trained, dynamic 
workforce of almost 15,000 men and women supported by 
sophisticated technologies, vehicles, aircraft, and other 
equipment.
    Contributing to all this is the Border Patrol's time-
honored duty of interdicting those who illegally enter the 
United States or smuggle narcotics and contraband between ports 
of entry. The Border Patrol's national strategy is an all 
threat strategy with anti-terrorism as our main priority. We 
cannot protect against the entry of terrorists and the 
instruments of terror without also reducing the clutter that is 
caused by illegal migration across our borders. This strategy 
has increased the effectiveness of our agents by using a risk 
management approach to deploy our resources. This strategy 
recognizes that we cannot go it alone. Border awareness and 
cooperation with our law enforcement partners are critical to 
securing America's borders.
    We cannot control our borders by merely enforcing law at 
the line. Our strategy incorporates defense-in-depth 
components, including transportation checks away from the 
physical border. To carry out its mission, the Border Patrol 
has a clear strategic goal to establish and maintain effective 
control of the borders of the United States. Effective control 
is defined in the Border Patrol strategy as ability to detect, 
respond, and interdict border penetrations in the areas deemed 
a high priority for threat potential or other national security 
objectives.
    In order to establish effective control in a given 
geographical area, we must be able to consistently detect an 
illegal entry, identify and classify the entry, and determine 
the level of threat involved, respond to the entry, and bring 
the event to a satisfactory law enforcement resolution. 
Gaining, maintaining, and expanding a strong enforcement 
posture with sufficient flexibility to address potential 
exigent enforcement challenges is critical in bringing 
effective control to the borders. Guidance at the national 
level for planning and implementation ensures resources are 
initially targeted to gain and maintain effective control in 
the most vulnerable, high risk border areas, and then to expand 
this level of border control to all Border Patrol sectors.
    While the key is the right combination of personnel, 
infrastructure, and technology, it must be coupled with 
improved rapid response capability and organizational mobility. 
Each of these components is interdependent, and is critical to 
the success of the Border Patrol strategy. There is no stretch 
of the border in the United States that can be considered 
completely inaccessible or lacking in the potential to provide 
an entry point for a terrorist or terrorist weapon.
    Therefore, securing every mile of diverse terrain is an 
important and complex task that cannot be resolved by a single 
solution. To secure each unique mile of the border requires a 
balance of technology, infrastructure, and personnel that 
maximizes the government's return on investment, and is 
tailored to each specific environment.
    The Border Patrol operates in three basic geographical 
environments: urban, rural, and remote. Each of these 
environments requires a different mix of resources. In an urban 
environment, enforcement personnel generally have only minutes 
or sometimes seconds to identify an illegal entry and bring the 
situation to a successful law enforcement resolution. In rural 
and remote areas, where enforcement personnel have minutes to 
hours, or hours to days to detect, identify, classify, respond, 
and resolve, we expect to incorporate a comprehensive 
technological solution.
    Continued testing, acquisition, and deployment of sensing 
and monitoring platforms will be crucial in addressing these 
vast areas along America's borders. Nationally, the Border 
Patrol is tasked with a very complex, sensitive, and difficult 
job, which historically has presented immense challenges. We 
face those challenges every day with vigilance, dedication to 
service, and integrity, as we work to strengthen the national 
security and protect America and its citizens.
    I would like to thank both Chairman Wu and the subcommittee 
for the opportunity to present this testimony today, and for 
your support of CBP and DHS.
    I look forward to answering any questions that you may 
have.
    [The prepared statement of Chief Self follows:]
                    Prepared Statement of Jeff Self
    Chairman Wu, Ranking Member Gingrey, and distinguished Subcommittee 
Members, it is my honor to appear before you today to discuss the 
Office of Border Patrol's use of technology in securing the border. My 
name is Jeff Self, and I am the Division Chief over Southwest Border 
for Customs and Border Protection's Office of Border Patrol. The United 
States Border Patrol is a component of the Department of Homeland 
Security's (DHS) U.S. Customs and Border Protection (CBP). I would like 
to begin by giving you a brief overview of our agency and mission. As 
the guardian of the Nation's borders, CBP safeguards the homeland--
foremost, by protecting the American public against terrorists and the 
instruments of terror, while at the same time enforcing the laws of the 
United States and fostering the Nation's economic security through 
lawful travel and trade. Since 1924, the Border Patrol has grown from a 
handful of mounted agents patrolling desolate areas along U.S. borders 
to today's highly-trained, dynamic work force of almost 15,000 men and 
women supported by sophisticated technology, vehicles, aircraft, and 
other equipment. Contributing to all this is the Border Patrol's time-
honored duty of interdicting illegal aliens and narcotics and those who 
attempt to smuggle them across our borders. We cannot protect against 
the entry of terrorists and the instruments of terror without also 
reducing the clutter that is caused by illegal migration across our 
borders. For example, today we have to account for all who enter or 
attempt to enter the United States illegally. Last year we arrested 
over 870, 000 people who entered the United States illegally. Of those, 
we had over 18,000 major crime hits through biometric technology. These 
crime hits canvassed a litany of crimes to include murder, rape, sexual 
assaults, and kidnapping. It is imperative that we reduce the number of 
persons or clutter attempting to illegally enter the United States so 
that we can concentrate on terrorist or weapons of terror from entering 
the United States.
    The Border Patrol's national strategy is an ``all threats'' 
strategy with anti-terrorism as our main priority. This strategy has 
made the centralized chain of command a priority and has increased the 
effectiveness of our agents by using a risk-management approach to 
deploy our resources. The strategy recognizes that border awareness and 
cooperation with our law enforcement partners are critical. 
Partnerships with the Department of the Interior; Immigration and 
Customs Enforcement; Drug Enforcement Administration; Federal Bureau of 
Investigation; State, local, and tribal law enforcement agencies; and 
State Homeland Security offices plays a vital role in sharing and 
disseminating information and tactical intelligence that assists our 
ability to rapidly respond to an identified threat or intrusion, which 
is essential to mission success.
    Recognizing that we cannot control our borders by merely enforcing 
the law at the ``line,'' our strategy incorporates a ``defense in 
depth'' component, to include transportation checks away from the 
physical border. Traffic checkpoints are critical to our enforcement 
efforts because they deny major routes of egress from the borders to 
smugglers who are intent on delivering people, drugs, and other 
contraband into the interior of the United States. Permanent traffic 
checkpoints allow the Border Patrol to establish an important second 
layer of defense and help deter illegal entries through comprehensive 
enforcement. Border Patrol Agents often encounter fraudulent documents 
while conducting transportation check duties. Agents receive training 
at the Border Patrol Academy that enables the agent to identify key 
features and characteristics of valid immigration documents. This 
training, coupled with on the job training, allows agents to identify 
common tactics used by the criminal element in creating fraudulent 
documents. Our most valuable asset at the checkpoint in examining the 
validity of any document (birth certificate, driver's licenses, and 
immigration documents) is the agent's experience.
    To carry out its mission, the Border Patrol has a clear strategic 
goal: Establish and maintain effective control of the border of the 
United States. Effective control is defined in the Border Patrol's 
strategy as the ability to detect, respond, and interdict border 
penetrations in areas deemed a high priority for threat potential or 
other national security objectives. In order to establish effective 
control in a given geographical area, we must be able to consistently:

        <bullet>  Detect an illegal entry;

        <bullet>  Identify/Classify the entry and determine the level 
        of threat involved;

        <bullet>  Respond to the entry; and

        <bullet>  Bring the event to a satisfactory law enforcement 
        resolution.

    Gaining, maintaining, and expanding a strong enforcement posture 
with sufficient flexibility to address potential exigent enforcement 
challenges is critical in bringing effective control to the borders. 
Guidance at the national level for planning and implementation ensures 
resources are initially targeted to gain and maintain effective control 
in the most vulnerable, highest-risk border areas, and then to expand 
this level of border control to all Border Patrol Sectors.
    While the key to mission success is the right combination of 
personnel, infrastructure, and technology, it must be coupled with 
improved rapid response capability and organizational mobility. Each of 
these components is inter-dependent and critical to the success of the 
Border Patrol's strategy. We are fully engaged with the DHS Science and 
Technology (S&T) Directorate in our efforts to identify, develop, and 
acquire technology to help us gain enhanced awareness and control of 
our borders. Our participation in S&T's Integrated Process Team on 
Border Security, for example, will help us use S&T resources to develop 
technology that will better secure our borders. Systems with the 
technological ability to predict, detect, and identify illegal entries 
and other criminal activity, but lacking the capacity for a rapid 
response or reaction, cannot complete the enforcement mission. 
Conversely, enforcement personnel with inadequate intelligence or poor 
technological support to provide situational awareness, access, and 
adequate transportation or equipment necessary to conduct enforcement 
activity are much less likely to be effective in today's dynamic border 
environment.
    There is no stretch of border in the United States that can be 
considered completely inaccessible or lacking in the potential to 
provide an entry point for a terrorist or terrorist weapon. Therefore, 
securing every mile of diverse terrain is an important and complex task 
that cannot be resolved by a single solution, such as installing fence. 
Securing each unique mile of the border requires a balance of 
technology, infrastructure, and personnel that maximizes the 
government's return on investment and is tailored to each specific 
environment. Some of the components utilized in evaluating tactical 
infrastructure needs are border access (the existence of all-weather 
roads), border barriers (vehicle and pedestrian), and the lack of non-
intrusive inspections equipment at checkpoint facilities.
    The proper mix of personnel, technology, and infrastructure will 
vary with differing border environments and enforcement challenges. The 
Border Patrol operates in three basic geographical environments: urban, 
rural, and remote. Each of these environments requires a different mix 
of resources. In an urban environment, enforcement personnel generally 
have only minutes, or sometimes seconds, to identify an illegal entry 
and bring the situation to resolution. This dynamic is a result of the 
fact that significant infrastructure exists to facilitate an illegal 
entrant's approach to the border and entry and to permit the violator 
to escape within moments of effecting the entry by blending in with the 
legitimate traffic in the community. New tactics are constantly 
developed by those attempting to avoid detection in such situations in 
order to combat increased border security. One of those new methods 
that we have seen is the discovery of tunnels. There have been over 70 
tunnels detected on the border. These tunnels were detected by various 
methods including sinking vehicles, collapsing roads, and by agents in 
the performance of their duties.
    On the Northern border, the vastness and remoteness of the area and 
the unique socioeconomic ties between the U.S. and Canada are 
significant factors in implementing the Border Patrol's national 
strategy. Severe weather conditions on the Northern border during 
winter intensify the need to expand ``force-multiplying'' technology to 
meet our enforcement needs. The number of actual illegal border 
penetrations along the U.S.-Canada border is small in comparison to the 
daily arrests along the U.S.-Mexico border. The threat along the 
Northern border results from the fact that over ninety percent of 
Canada's population of 30 million lives within one hundred miles of the 
U.S.-Canada border. It is most likely that potential threats to U.S. 
security posed by individuals or organizations present in Canada would 
also be located near the border. While manpower on the U.S.-Canada 
border has significantly increased since 9/11, the Border Patrol's 
ability to detect, respond to, and interdict illegal cross-border 
penetrations there remains limited. Continued testing, acquisition, and 
deployment of sensing and monitoring platforms will be crucial in 
addressing the Northern border threat situation.
    One tool that CBP uses to assist with border security is the 
Unmanned Aircraft System (UAS). The UAS provides CBP with a remotely 
piloted asset that allows for persistent, broad area surveillance. UAS 
operations are proactive responses to un-cued, cued, and intelligence 
based missions. The UAS Program focuses its capabilities on the CBP 
priority mission and enhances surveillance and reconnaissance 
requirements along the border. The UAS has the flexibility and 
endurance to fly long leg surveillance missions while conducting both 
scheduled and unscheduled searches. As a law enforcement force 
multiplier for CBP, the UAS allows CBP Air and Marine (A&M) to support 
other DHS entities, including the United States Coast Guard, the 
Federal Emergency Management Agency (FEMA), and U.S. Immigration and 
Customs Enforcement.
    Since 2004, CBP UASs have flown more than 2,000 hours, directly 
contributing to more than 4,000 arrests and the seizure of thousands of 
pounds of marijuana. In July 2007, CBP A&M added another UAS to the 
southwest border for a total of two. In FY 2008, one UAS will migrate 
to the northern border to support expanded northern border operations. 
Once additional personnel are trained to support UAS operations in the 
southwest, CBP A&M will be available to provide surveillance at the 
southwest border 24 hours a day, seven days a week.
    Nationally, the Border Patrol is tasked with a very complex, 
sensitive, and difficult job, which historically has presented immense 
challenges. We face those challenges every day with vigilance, 
dedication to service, and integrity as we work to strengthen national 
security and protect America and its citizens. I would like to thank 
both Chairman Wu, and the Subcommittee, for the opportunity to present 
this testimony today and for your support of CBP and DHS.

                               Discussion

    Mr. Mitchell. Thank you. At this point, we will open up for 
our first round of questions, and I will recognize myself for 
five minutes.
    Dr. Jackson, you specifically mentioned how adversaries 
have been able to detect the technologies identified as 
priorities in the bill: unmanned surveillance vehicles, tunnel 
detectors, anti-counterfeit technologies, and so on. How should 
these identified vulnerabilities affect how DHS proceeds in 
these research areas?
    Dr. Jackson. Well, any technology is vulnerable. It is a 
question of how easy or how hard it is for those 
vulnerabilities to be discovered by our adversaries, and how 
quickly they can exploit them.
    In thinking about--sort of dealing with that in research 
and development planning, one of the elements is to pursue 
different strategies simultaneously, so if they determine a way 
around a first line anti-counterfeiting technology, for 
example, there are ways that it can be modified to address that 
vulnerability.
    But the other piece of this, too, it is something that I 
included in my written testimony, but not my oral, is that the 
other piece of this is the technology's function within the 
overall system of our border defense, and so, there is also the 
human resources and the concepts of operation better used to 
reinforce the effectiveness of those technologies.
    And those can actually provide a way, by preserving 
flexibility in the way that we use the technologies, to 
preserve our ability to adapt in response as well. So it is 
sort of the two-pronged strategy of making sure that we have 
preserved variety in our technologies, but also, thought 
through how the way that we use those technologies can also 
counteract the adaptability of the folks who are trying to 
break through the border.
    Mr. Mitchell. Thank you. Chief Self, one of the things I 
would like to ask you--. First, how would you characterize DHS 
S&T's interaction with the CBP, and has DHS S&T been responsive 
to the CBP's short and long-term technology needs?
    Mr. Self. I would characterize it, sir, as a very close 
relationship. Within the Office of Border Patrol, we have an 
Enforcement and Information Technologies Division with the 
Division Chief responsible for the personnel. They work closely 
with CBP Office of Information Technology, and together, 
coordinate with S&T.
    There has been coordination on many efforts in research and 
development for operational technologies over the last couple 
of years.
    Mr. Mitchell. In your testimony, you say that our most 
valuable asset at the checkpoint in examining the validity of 
any document is the agent's experience. Does CBP currently 
employ anti-counterfeiting technology to help agents catch 
fraudulent documents? And if not, why, and in your opinion, 
what value does technology add to anti-counterfeit efforts?
    Mr. Self. As it now stands, sir, agents in the field 
basically rely on their training that they receive at the 
Academy. They receive 21 hours of training in fraudulent 
document identification. In addition, they are trained in how 
to look at the security features that are within the document, 
and after leaving the Academy, they have post-Academy, in which 
they receive additional training on fraudulent documents.
    Other than that, there--at the present time, there is no 
technology for them to utilize in running cards through to 
identify that they have been altered or they are a false card.
    Mr. Mitchell. You rely strictly on the agent's experience, 
and what they learned?
    Mr. Self. That is correct, sir.
    Mr. Mitchell. All right. You mentioned that the Border 
Patrol operates in three distinct environments: urban, rural, 
and remote. Yet, research priorities are weighed towards 
technologies intended to operate in remote environments. What 
type of technology gaps exist for CBP operations in urban and 
rural environments, and why have these technologies not been a 
priority?
    Mr. Self. In the urban and rural environments, sir, it is, 
in all three environments, it comes down to the proper mix, and 
the proper mix is, of course, personnel, it is infrastructure 
and technology. In urban and rural, we have minutes to seconds 
to respond, especially in the urban environment. The smuggling 
infrastructure in the urban environment is normally directly 
adjacent to the international fence or the international line. 
If we don't have the infrastructure, the fences, the 
individuals penetrating the border can come in and be within 
the smuggling infrastructure and heading into the interior of 
the United States within minutes to seconds. Therefore, we need 
the infrastructure.
    In addition to that, typically, in our urban environments, 
we do have technologies. We have RBSS cameras that survey the 
fence. In some areas, we have attended ground sensors that will 
pick up somebody walking into the United States. There is a mix 
of tactical infrastructure and technologies in our urban areas. 
For the most part, however, it is not clear across the border 
at this time.
    Mr. Mitchell. Thank you. I now recognize Mr. Hall for five 
minutes.
    Mr. Hall. Thank you, Mr. Chairman. Chief Self, I probably 
owe you an apology. I called you a general when I was out there 
earlier. I saw those two stars there. You have a lot heavier 
duty and more territory to cover than an average general does. 
You are the division guy out of a great area.
    Mr. Self. Yes, sir.
    Mr. Hall. Very valuable to us.
    Mr. Self. Thank you, sir.
    Mr. Hall. And I would like for you to hurry up with your 
testimony and get on back to doing what you are doing, because 
we need you.
    Mr. Self. I would rather be out there than here, sir.
    Mr. Hall. Yeah, I know you would. And I will correct 
something on you, Dr. Hooks. By golly, you are a doctor, 
because I looked in the dictionary, and it says a doctor is a 
learned person, and you taught me all about these exhibits 
here, that I know more now than most citizens do, and I can 
answer a lot of questions that I get asked.
    Mr. Hooks. Thank you, sir.
    Mr. Hall. I don't know how I am going to fully describe all 
that, but I am just going to tell them we have it, and they 
will have to take my word for it.
    I mentioned in my opening statement, Dr. Jackson, about the 
fact that you tracked a number of terrorist groups, and that 
you had some good advice about our need for a multi-layered 
defense. Do you want to enlarge on that a little?
    Dr. Jackson. Sure. I mean, in the work that we did, we 
looked across the whole world. So, we picked terrorist groups 
from--everyone from the LTTE in Sri Lanka, which is a very 
structured and well researched terrorist group, to Jemaah 
Islamiyah in Indonesia, and we did that because we wanted to 
cover the variety of the threat that technologies face from 
groups responding.
    And in looking across that, what struck us was the 
commonality in the ways that a lot of these groups sort of came 
at the defenses that were put in their way, because 
technologies can be--provide a very potent security role, they 
are something that are threatening to the interests that the 
terrorist groups are trying to advance, so they respond to 
them.
    And so, in thinking about a multi-layered defense, and one 
element of that is sort of the multi-layers that we have heard 
here, you know, talking about reinforcing the fence with 
sensing equipment, so you have, you know, multiple layers at 
the same time. But the other element of this multi-layer idea 
that came out in our research is this idea of making sure that 
we have a portfolio of technologies available, not that we are 
all using at the same time, to provide multi-layers right now, 
but also we have things on the bench, if you will, to roll out 
if the first layers are broken through. And so, it is a multi-
layered defense not just at the same time, but providing our 
ability to reconstitute the layers of our defense over time, 
because of course, as I am sure anyone who does this on a day 
to day basis knows, this is an ongoing, long-term contest 
between the people who are trying to break through the border, 
and the security organizations that are trying to keep that 
line.
    And so, as a result, we have to be prepared to think about 
what we are doing, and the benefits of what we do over the 
long-term.
    Mr. Hall. Getting back to you, Mr. Hooks--Dr. Hooks. In 
your testimony, you state that tunnel detection is an example 
of research the Directorate likes to tackle through the basic 
research portfolio for Fiscal Year 2009. What specific programs 
are you seeking funding for, for Fiscal Year 2009, and where 
would these be carried out?
    Mr. Hooks. Specifically related to tunnel research?
    Mr. Hall. Yes. Yes, and that's in this bill.
    Mr. Hooks. We are looking to pursue specific efforts in 
fiber optic technology and enhancements, so that they could 
detect when tunnels are being built, the vibrations of the 
tunnels being constructed, and/or the people passing through 
them.
    Mr. Hall. Just give us an idea about what kind of problem 
tunneling is.
    Mr. Hooks. Problem----
    Mr. Hall. Yeah.
    Mr. Hooks. Problem from a detection standpoint?
    Mr. Hall. Detection, prevention. The length of the tunnels. 
What is the longest tunnel you have ever seen?
    Mr. Hooks. I can't specifically comment on----
    Mr. Hall. But can you come close to it?
    Mr. Hooks.--on the details.
    Mr. Hall. I have heard that they have been, tunnels as far 
as a block.
    Mr. Hooks. Oh, at least a block. In different locations, 
and Chief Self can probably provide some specific details.
    Mr. Hall. I will ask the Chief about that.
    Mr. Self. That is correct, sir. We have had tunnels as far 
as several hundred yards, starting in Mexico, and tunneling 
into the United States.
    Mr. Hall. And how do you detect--how can you detect that? 
How far underground is the tunnel?
    Mr. Hooks. Tunnels aren't that deep, 20 yards or so. I am 
sure there are cases they have been deeper.
    Mr. Self. One problem they have in tunneling, sir, is they 
have to deal with the water level in certain areas of the 
Southwest border. Therefore, in some areas, you can have them 
as deep as 12, 15, 20 feet. In other areas, they are only 
anywhere from six to say, eight, 10 feet below the surface.
    Mr. Hall. Go ahead and answer the question I asked you a 
moment ago.
    Mr. Hooks. Yes, sir. And so, the challenge in tunnel 
detection is being able to detect it in near real time. 
Ideally, to support their operations in a nonobtrusive manner 
and quickly, using some kind of different detection scheme, 
whether that be looking at the vertical deflections, gravity 
deflections, electromagnetic deflections or whatnot, and right 
now, the equipment is just not sensitive enough, so that you 
could fairly rapidly, maybe using a truck at the border going 
10 miles an hour along the border, be able to detect a tunnel 
successfully, not receive a lot of false positives, so that the 
Border Patrol could then take, excuse me, corrective action 
accordingly.
    Mr. Hall. I think my time is up. Mr. Chairman, are we going 
to be allowed to send questions to them?
    Mr. Mitchell. Yes, we will.
    Mr. Hall. Okay. I thank you for my time, and I am sorry I 
went over the time.
    Mr. Mitchell. I thank you. At this time, I recognize Ms. 
Richardson for five minutes.
    Ms. Richardson. Thank you, Mr. Mitchell.
    First of all, I would like to take a moment to commend 
Congressman Hall for bringing forward this legislation, H.R. 
3916. I think nothing is more important when we talk about 
setting appropriate priorities, particularly having to do with 
research and funding, taxpayer funding that is going towards 
this, that it is done in the right way.
    So, congratulations, Congressman Hall, on your efforts 
today. I simply have one question for Mr. Hooks, and that is, 
when technology is developed by the Department of Homeland 
Security's Science and Technology group, how is it that a 
technology's performance is validated?
    And let me preface what I am saying to give you an example. 
I represent Southern California, and we recently had a spill in 
Northern California, where you know, a bridge was hit, and oil 
was dumped, and the Coast Guard was supposed to have been 
there, and you know, first of all, they shouldn't even have run 
into the bridge to begin with, then oil was dispersed into the 
water. No communication was made to the public for eight years. 
It was just a comedy of errors, and when I say comedy, I don't 
mean it in a humorous way. It was a disgraceful way, in my 
opinion.
    So, I am concerned with the tremendous amount of funding 
that we use to, you know, utilize these technologies to protect 
our borders, but sometimes actually validating the performance 
of all this work is where we have a shortfall.
    So, if you could tell us a little bit about what your 
department is doing in that aspect, and how you work with other 
groups or independent agencies to assist us in this effort?
    Mr. Hooks. Yes, ma'am. It is important, we totally agree, 
to effectively test the technologies before they are placed in 
an operational environment with the different components. To do 
that, we use several different means. Underneath each of the 
Capstone IPTs, we have created project IPTs, where program 
managers from the components, such as the Border Patrol, and 
program managers in S&T, are coming together with appropriate 
end-users, and defining the specifics of that equipment, the 
requirements that it needs to meet.
    Commensurate with that, they also need to define what are 
the appropriate test and evaluation procedures that should be 
followed, testing of that equipment both in the laboratory 
setting and out in an operational setting, so that by the time 
that equipment is transferred to the Border Patrol for 
procurement, they can be confident that it works correctly.
    So, we would encourage them, and surely, they would 
participate in that evaluation of the testing of the equipment 
as we go forward, so that they can feel confident at the point 
that they receive it that it works properly. One example is we 
have a test bed down at the Southwest Border at Douglas, where 
we take new technologies down there, we give them to the Border 
Patrol agents. Our Science and Technology people will be there, 
but they are using them in the background of their normal day-
to-day operations, giving us feedback on it, and helping us to 
evaluate the equipment, to make sure that it is operating 
effectively.
    Ms. Richardson. And when you say they give you feedback, 
are these the actual ground patrol officers who are providing 
you with the results?
    Mr. Hooks. Yes. Yes, down in the Tucson sector, either the 
Sector Chief, his specific agents, he has a component down at 
the Douglas Test Site that specifically engages with us. These 
are Border Patrol agents in that sector that are using the 
technology, and we get direct feedback from them.
    Ms. Richardson. Thank you, Mr. Hooks. I yield back my time, 
Mr. Mitchell.
    Mr. Mitchell. Thank you. I now recognize Dr. Gingrey for 
five minutes.
    Mr. Gingrey. Mr. Chairman Mitchell, thank you very much, 
and I want to thank all of the witnesses for being here this 
morning, and this is a hugely important issue. We all know 
that, and not only our ground borders, but maritime security, 
we haven't talked too much about maritime, but I have certainly 
had the opportunity to go to the Southwestern border. We are 
talking about 2,000 miles, aren't we, Chief Self?
    Of course, the Canadian border, it is a longer border, but 
I think our main focus, at least, on the Southern border, is 
paying great benefits. Chief, I commend you for your long 
service there. I actually went to Nogales, and we saw some of 
the work of your people on the ground in the heat of the day, 
and the dark of night, 24/7, doing their work, and I want to 
commend you and, of course, everybody else on the panel, for 
being here, and helping us understand a little bit better. I'm 
proud to be a co-sponsor of Mr. Hall's legislation.
    And I wanted an answer to a couple of specific questions, 
and actually, the first one, Mr. Kapos, is in regard to HSSTAC. 
I understand there was a lapse of authorization for HSSTAC back 
in 2006, and I want to know, did that adversely affect the S&T 
Directorate's ability, their organizational and planning 
capability, when that authorization was not forthcoming in 
2006?
    Could you comment on that for us?
    Mr. Kapos. Sure. I was not there, but all the same, I got 
to pick up the pieces. By the time the HSSTAC was reauthorized, 
we had only six members of the original 20.
    Mr. Gingrey. Of the original 20, did you say?
    Mr. Kapos. Yeah. Yeah.
    Mr. Gingrey. Describe these 20 people.
    Mr. Kapos. Well, they are representatives of scientific 
disciplines, and of the first responder community, who had an 
interest in--obviously, first responders have an interest in, 
but the scientists are specifically picked to be people who are 
eminent in their fields, and to have an interest in homeland 
security problems.
    As I said, by the time the HSSTAC was reauthorized, there 
were only six of them left, whose terms had not either lapsed--
--
    Mr. Gingrey. Six out of 20?
    Mr. Kapos. Yeah. Whose terms had not either lapsed or who 
had not resigned in order to accommodate other commitments. And 
actually, it turned out to be fairly straightforward to recruit 
14 people, because by and large, the people that I contacted 
came from lists that had been prepared previously of people who 
were interested. And by and large, they were very willing, but 
we have to face up to the fact that the HSSTAC didn't meet for 
the best part of a year, and it took us about two or three 
months to get the people recruited and screened and so on.
    We had our first meeting in late August in Newport, and we 
meet again in December in Arlington, and in between these two 
meetings, we have had a number of fact-finding meetings. We 
have been working pretty hard. As a result, while you would 
like not to lose any momentum, it turns out to be less 
problematic than it might be to regain it.
    Mr. Gingrey. Well, we appreciate your strong effort in 
restoring to that 20 number, and trying to replace those 14 who 
were so valuable. My five minutes went mighty quick, I guess, 
this slow, Southern way of talking. But let me just follow up. 
I have got a few seconds left and may as well stick with Mr. 
Kapos, in regard, how was the current task of IED threat 
assessment chosen, if you could discuss that with us in the 
brief time we have left?
    Mr. Kapos. Yes, indeed. The Under Secretary has been very 
concerned about the need to prepare for this threat. Now, IEDs, 
coming to a theater near you. And he was, in particular, 
concerned, that there was not a properly rounded program to 
address this. Running across the kill chain, from indication 
and warning, from prediction, from detection, all the way 
through to response. So, he simply asked the HSSTAC to look at 
it from that viewpoint, and I must say, since I get to sit 
through every endless meeting with the HSSTAC, that they are 
doing a very, very good job of considering the entire spectrum.
    Mr. Gingrey. Thank you very much, Mr. Kapos. Hopefully, we 
will have a second round, and I can address some questions to 
the other witnesses.
    Mr. Chairman, I yield back, and I thank you.
    Mr. Mitchell. Thank you. My understanding is we are going 
to be called to votes in about 10 minutes, so at this time, I 
would like to call on Mr. Wu, and then, we will call on Mr. 
Smith.
    Mr. Wu. Thank you, Mr. Chairman. And I am going to ask a 
question. I am going to ask two questions, and I will take the 
answers in writing. If we have time, we will take them here in 
the Committee, and then, I would like to focus on a third 
question.
    And the first piggybacks on Mr. Hall's question about 
tunneling, and also, gets at the issue of long-term versus 
short-term research. And with respect to tunnel detection 
research, it was pointed out that there are some basic research 
investments which are needed as a first step, and yet, the S&T 
Directorate is awarding a contract for shorter-term tunnel 
detection technology, and I am a little bit troubled that while 
the foundation might not have been laid, that we are charging 
ahead with short-term technology, and I am concerned that that 
would lead us to wasted research.
    And I would like the Department to justify awarding the 
short-term contracts, while the basic research hasn't been done 
yet. And maybe there is a good explanation for that, and maybe 
there isn't.
    Now, we will jump from underground to overhead, and I would 
like to know what the biggest technological challenges are in 
the UAV R&D area. Who is responsible for performance testing 
the UAVs? What criteria does the Department use to develop UAVs 
and define successful operation of UAVs, and I will take 
answers to both those questions in writing unless we can get 
back to it. This five minutes goes really fast.
    Now, Mr. Kapos, about HSSTAC, I am very concerned about 
long-term research versus short-term research, and laying the 
foundation in long-term research, so that, you know, we are not 
firefighting all the time, and you know, we do have to do a 
certain amount of firefighting in response to immediate 
threats. But you know, the challenge, and I think the challenge 
for the S&T Directorate, has always been that there is concern 
that you all are shortsighted. There has been too much focus on 
short-term stuff, and not enough foundational work, so that we 
have the flexibility to flex with the changing threat 
environment.
    And the concern is that the one tool, or a very important 
tool for setting long-term priorities is HSSTAC, and yet, that 
is a tool that has now been very strongly focused on IEDs, 
which is the threat of the day, and so, the problem is we have 
a problem with shortsightedness, and now, you have just taken 
the glasses off. We have gotten every more shortsighted, 
because HSSTAC has been focused on a near-term threat rather 
than looking out there, and appropriately setting priorities 
for the S&T Directorate's long-term research.
    Can you respond to what the S&T Directorate is doing about 
the long-term, while appropriately addressing the short-term, 
and whether HSSTAC has been hijacked to, you know--into short-
term projects?
    Mr. Kapos. Sure. First, let us address the IEDs, because 
the HSSTAC is looking explicitly at IEDs in the farther future, 
five and more years into the future, and----
    Mr. Wu. Now, what about non-IED threats? Shouldn't we be 
concerned about those also?
    Mr. Kapos. Most certainly, we should.
    Mr. Wu. I mean, you know, there are broad categories, you 
know, things like biosecurity, cyber security, et cetera. I 
mean, you know, folks don't just focus on one thing.
    Mr. Kapos. No, no. I agree. When we finish our 
consideration of IEDs in the five- to 10-year future, which 
will be about the 1st of February, then will be the time to 
pick another problem. And certainly, cyber security is begging 
for a look. Certainly, biosecurity is, too. But it is 
important, I think----
    Mr. Wu. HSSTAC is configured to just handle one thing at a 
time?
    Mr. Kapos. It is, pretty much. There is nothing that says 
that we cannot subdivide the HSSTAC and consider two problems 
or three problems, but remember, please, that the law allows 
for only 20 members, and so we have to worry about having a 
sufficient concentration of the various disciplines in order to 
provide a well-rounded consideration.
    Mr. Wu. Well, how many JASONs are there in the JASON 
program at DOD? I mean, aren't they supposed to look at a 
universe of defense threats, and that is sort of their task? 
And why is HSSTAC different from that?
    Mr. Kapos. I cannot answer why HSSTAC is different from 
that. I don't know how many JASONs there are, but I do know 
that the JASONs lay out a study program for themselves a year 
ahead, and they go from problem to problem to problem. And that 
is pretty much what we are trying to do with the HSSTAC.
    Mr. Wu. Except in this instance, HSSTAC didn't pick IEDs 
themselves, they were told to do so.
    Mr. Kapos. Well, there was considerable consultation 
between the Under Secretary and the Chairman of the HSSTAC 
before they settled on IEDs. And as I say, the IEDs are crying 
out for an integrated, broader spectrum program than they have 
had in the past. So, I guess I am saying that I don't quite 
agree that it has been hijacked by the immediacy of the 
problem.
    Mr. Mitchell. Thank you. I would like to now recognize Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Hooks, if you wouldn't mind answering this question. A 
2008 budget request for the Border and Maritime Division is 
only about three percent of the total S&T budget. Can you 
elaborate on why that would seem, at least on its face, to be 
such a small amount? As a percentage of the entire budget? Or 
of the Directorate's activities, at least?
    Mr. Hooks. Excuse me. I can say that within our S&T budget, 
in my particular area, in the transition area, we look at the 
11 different functional areas that we have broken down the DHS 
mission space to, and with the leads of the different 
components, they have identified what their highest priority 
gaps area that require technology solutions. We propose 
different technology programs and cost estimate them to provide 
those solutions.
    And then we have created a Technology Oversight Council 
that is led by the Deputy Secretary of the Department, where he 
looks, in an integrated fashion, across those 11 IPTs and the 
requirements of each of those 11 IPTs, and based on risk in 
those functional areas and his considerations, he is charged 
with the balancing of that effort to make sure that it is 
meeting across the spectrum of effort the highest-priority 
needs of the Department. And that is how that budget is formed.
    Mr. Smith. Okay. Thank you. I yield back.
    Mr. Mitchell. Thank you. Before we bring the hearing to a 
close, I want to thank our witnesses for testifying before us 
today.
    The record will remain open for additional statements from 
the Members, and for answers to any follow-up questions the 
Committee may ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned. Thank you.
    [Whereupon, at 11:16 a.m., the Subcommittee was adjourned.]















                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Robert R. Hooks, Director of Transition, Science and 
        Technology Directorate, Department of Homeland Security

Questions submitted by Chairman David Wu

Q1a.  What are the biggest technological challenges in the area of 
unmanned aerial vehicle (UAV) R&D? Who is responsible for performance 
testing for UAVs? What criteria does DHS use to define successful 
operations for UAVs?

A1a. The biggest technological challenges DHS faces today in Unmanned 
Aerial Vehicle (UAV) R&D involves: Fulfilling FAA requirements to 
operate within the National Airspace System (NAS), expanding sensor 
capabilities allowing DHS to discriminate criminal activities at 
medium- to high-altitude operating regimes, and maximizing the 
operational benefits of an unending stream of data information obtained 
by sophisticated UAV platforms.

        <bullet>  In order to have the FAA allow DHS unmanned aerial 
        systems (UAS) into the National Airspace System (NAS), they 
        currently require a lengthy approval process to fly in a very 
        controlled and confined environment. The FAA will become much 
        more flexible once they can be assured of collision avoidance 
        between UAS' and manned/other unmanned aircraft. To accommodate 
        this requirement, automated sense-and-avoid systems, capable of 
        detecting and sidestepping oncoming aircraft without a pilot's 
        intervention are required to assure collision avoidance. The 
        challenge to accommodate this provision lies in the fact that 
        the avoidance system must be fully automated without human 
        intervention as one would find in manned aircraft.

        <bullet>  In order to take full advantage of increased 
        surveillance opportunities found with advanced UAS 
        capabilities--altitudes from 18,000 to 65,000 feet and longer 
        station times of up to seven days--UAS payloads and sensors 
        need greater sensitivity and resolution to meet DHS 
        requirements. Requests for such complex UAS platforms have 
        pushed the envelope for producers of sensor equipment because 
        the demand for such high-resolution/high-sensitivity sensors 
        (i.e., sensors that can optically discriminate features of 
        illegal cargo and people engaged in illegal activities) is 
        relatively new. DHS' ultimate goal is a UAV platform that 
        yields a fully functional operating picture that highlights 
        areas of potential criminal activity.

Q1b.  Who is responsible for performance testing for UAVs?

A1b. DHS is exploring options for performance testing providers. Until 
a final determination can be made, DHS is working through cross-
organizational and cross-agency venues to conduct performance testing. 
For example, DHS partnered with DOD for one DOD UAS-related Joint 
Concept Technology Demonstration. DHS also has planned the UAS Gulf 
Coast Demonstration (GCD) to determine acceptable platform and sensor 
performance. This particular demonstration will combine the operational 
efforts of multiple DHS Agencies while using the test and evaluation 
capabilities of the Science and Technology Directorate.

Q1c.  What criteria does DHS use to define successful operations for 
UAVs?

A1c. The criteria that DHS uses to define successful unmanned aircraft 
systems (UAS) operations are availability, mean time between failure, 
mishap rate, etc. Customs and Border Protection (CBP) is the operator 
of UASs within the Department and establishes these criteria. CBP 
tracks statistics for law enforcement operations such as the number of 
apprehensions made or pounds of illegal drugs confiscated. UAV 
performance is measured against metrics based on these statistics.

Q2a.  With regards to tunnel detection research, you point out that 
basic research investments are needed as a first step towards 
developing effective tunnel detection technology. Yet you also say that 
DHS S&T is awarding a contract for a shorter-term tunnel detection 
technology effort. What is the goal for developing prototype detection 
technology, given that much of the important foundation research has 
not yet been conducted? How much is DHS S&T spending on this High 
Impact Technology Solution (HITS) project?

      How will DHS S&T test and validate any technology developed 
through this HITS project? If the technology is successful, what steps 
will DHS take to make this technology available to CBP? What criteria, 
outside of technological capabilities, will DHS use to measure success? 
Cost? Training requirements?

A2a. The Homeland Security Act of 2002 calls for the Homeland Security 
Advanced Research Projects Agency (HSARPA) to ``promote revolutionary 
changes in technologies. . .'' In the execution of that direction, the 
S&T Directorate's Innovation/HSARPA work pursues technologies that have 
potential to achieve results far sooner than the normal development 
process. The Tunnel Detection effort is one of the S&T Directorate's 
High Impact Technology Solutions (HITS) projects, where we invest a 
relatively small amount of money, accepting considerable risk of 
failure, in order to pursue a potential proof-of-concept answer within 
one to three years. This approach challenges industry to think outside-
of-the-box and to develop leap-ahead technologies. However, because of 
the potential risk of failure of this approach, it is important that 
this work takes place in parallel with more conservative approaches, 
including longer-term, basic research.

Q2b.  How much is DHS S&T spending on this High Impact Technology 
Solution (HITS) project?

A2b. The S&T Directorate FY 2007 budget for the tunnel detection HITS 
project is $2 million. The S&T Directorate's planned FY 2008 budget for 
the tunnel detection HITS project is $1 million.

Q3.  In your testimony, you discuss the S&T Directorate's plans for 
tunnel detection research. Specifically, you say you ``intend to study 
and characterize the geophysical characteristics of key border 
regions,'' beginning in FY 2009. Why do you believe DHS should carry 
out this research, as opposed to the U.S. Geological Survey? More 
generally, how do you determine whether DHS should carry out certain 
research as opposed to agencies with greater expertise in specific 
fields?

A3. The Customs and Border Protection (CBP) and Immigration and Customs 
Enforcement (ICE) agencies are partnered with the S&T Directorate to 
develop and demonstrate robust and reliable tunnel detection 
technologies. In support of this effort, we will review U.S. Geological 
Survey data to determine the existing geophysical characteristics of a 
region-of-interest. Such data is important to enabling the technology 
to detect anomalies or changes that would indicate the existence of a 
tunnel.

Q4.  In your testimony, you discuss current cargo security research 
efforts. How has DHS engaged with end-users of these technologies, such 
as shipping industry representatives, to develop performance 
requirements and standards for tracking and cargo identification 
technologies?

A4. The S&T Directorate's Borders and Maritime Security Division uses a 
variety of methods to engage industry on the development of performance 
requirements and standards for emerging tracking and cargo-
identification technologies. These include industry forums, requests 
for information, and one-on-one discussions with container and maritime 
industry representatives.
    For example, the S&T Directorate meets regularly with members of 
the shipping industry. Through dialogue with several ocean carriers, we 
found that two of the systems developed by our office, the Marine Asset 
Tag Tracking System (MATTS) and the Hybrid Composite Container, could 
provide broader commercial benefits in addition to our intended 
security objectives. MATTS can provide efficiencies from improved asset 
visibility, while the Hybrid Composite Container offers more durability 
and weight savings over existing containers. Industry could benefit 
commercially from the potential promulgation of cargo security 
standards such as these. Additionally, the S&T Directorate continues to 
seek and has received the cooperation of the shipping industry to test 
these technologies.
    The S&T Directorate also uses industry forums and invitational 
speaking engagements to ensure a broader outreach across carriers and 
shipping industry end-users. Recently, in November 2007, we addressed 
the annual world-wide Terminal Operators Conference (TOC) in Panama on 
the S&T Directorate's Cargo Security Program. During this review, we 
received positive feedback on our approach to solving complex security 
issues involving container shipping.
    The S&T Directorate has met with the World Shipping Council and 
members of the Department of Transportation (DOT) Supply Chain Security 
Working Group to discuss the role of standards in both industry and 
government related to cargo and shipping containers. The S&T 
Directorate is supporting the U.S. Customs and Border Protection (CBP) 
Working Group focused on cargo and container security standards. CBP is 
the United States' representative to the World Customs Organization 
(WCO). International standards would need to be promulgated through the 
WCO, as the end-user regulatory body, through their SAFE Framework of 
Standards.

Questions submitted by Representative Ralph M. Hall

Q1a.  During the hearing you described the process by which the Deputy 
Secretary looks across the 11 IPTs to determent funding priorities for 
the Directorate. What information does the Deputy Secretary use to 
determine the relative investment among the IPTs? Similarly, what 
metric does S&T use to determine what projects are funded in the high-
risk, Innovation portfolio?

A1a. The Deputy Secretary has established a Technology Oversight Group 
(TOG) to provide oversight of the S&T Directorate's Capstone IPT 
investments. The TOG is chaired by the Deputy Secretary and consists of 
the DHS Under Secretary for Management and the DHS Under Secretary for 
National Protection and Programs. The DHS CFO attends, and the DHS 
Under Secretary for Science and Technology is the Executive Secretary. 
Through the TOG, the Deputy Secretary provides oversight of the S&T 
Capstone IPT investment and ensures investment balance across the 
Capstone IPTs. In implementation, the DHS Under Secretary for Science 
and Technology provides the Capstone IPT-approved, -prioritized and -
recommended S&T Enabling Homeland Capabilities (EHC) to the TOG. The 
TOG validates the customer focus and ensures that proposed S&T 
Directorate programs support Department-wide strategies and concerns.
    The TOG prioritizes funding across S&T Directorate Divisions using 
specific criteria such as:

        <bullet>  Magnitude of Vulnerability/Risk--projects that would 
        significantly reduce the known vulnerability/risk to a known 
        threat;

        <bullet>  Projects that address one or more of the DHS 
        priorities identified;

        <bullet>  Cross-cutting Department priority--projects that 
        address high-priority capability gaps identified by multiple 
        IPTs;

        <bullet>  Ability to fill a major capability gap--projects that 
        have a high potential to fill a capability gap identified by 
        IPTs;

        <bullet>  Transition timing--projects that match transition 
        with a scheduled DHS acquisition program upgrade; and

        <bullet>  Expected delivery time.

Q1b.  Similarly, what metric does S&T use to determine what projects 
are funded in the high-risk, Innovation portfolio?

A1b. The initial (current) set of Homeland Innovative Prototype 
Solutions (HIPS) and High Impact Technical Solutions (HITS) projects 
were selected in early FY 2007, prior to the initial meeting of the S&T 
Directorate's Capstone Integrated Product Teams (IPTs). They were 
selected as a result of the Under Secretary for Science and 
Technology's participation in a two-day off-site with all Department 
leadership. The Under Secretary was able to identify the priority gaps 
in capability as described by leadership and those gaps became the 
initial HIPS and HITS. The list of HIPS and HITS projects has been 
extremely well received by our customers and has generated tremendous 
interest among industry. New HIPS and HITS will be selected from 
various inputs including the IPT process, unsolicited input from 
industry and laboratories, and from teaming opportunities with other 
agencies. The S&T Directorate's Corporate Board will review all 
potential candidates for HIPS and HITS categories and make final 
program decisions.

Q2.  In your testimony you describe a UAV simulation S&T is currently 
developing with the FAA. How will this simulation help ease the 
barriers to regular operations of UAVs in the National Airspace System? 
Will S&T also pursue flight tests of relevant safety hardware?

A2. Unmanned Aerial Vehicles (UAV) simulation between the S&T 
Directorate and the Federal Aviation Administration (FAA) will directly 
affect the relationship during regular operations of UAVs in the 
National Airspace System (NAS). By coordinating during the simulations, 
the process of putting more UAVs in the NAS will be much safer. 
Simulations will address issues such as the airspace during take-offs 
and landings as well as in-flight collision avoidance. Since many UAVs 
fly at the same altitude as manned aircraft, this is where most of the 
coordination is needed. By doing simulations that will practice take-
offs and landings and flying in the vicinity of manned aircraft, DHS 
organizations and the FAA will help ease the barriers during regular 
operations as well as last-minute disaster relief operations such as 
the recent wildfires in California. By preparing emergencies during 
simulations, DHS organizations as well as the FAA will be able to 
coordinate and manage the NAS much more efficiently.
    The S&T Directorate is working with the FAA and DOD to pursue 
flight tests of relevant safety hardware including collision avoidance 
systems. The fact that UAVs are unmanned makes safety in the NAS the 
highest concern to the S&T Directorate, and we intend on ensuring all 
relevant safety hardware has been properly tested and standardized.

Q3a.  Dr. Jackson's testimony highlighted the need for regular red-
teaming to ensure technological defenses cannot be immediately 
overcome. What role does red-teaming play in current testing and R&D 
activities of the Directorate? Dr. Jackson also spoke about the 
potential need for organizational changes to utilize new technology or 
adapt to opponents. Does the S&T Directorate have the expertise to 
advise DHS components on organizational or operational improvements or 
provide research in this area?

A3a. The S&T Directorate agrees with the importance of red teaming and 
is evolving an external red team capability. Within the S&T 
Directorate, we look to various laboratories to provide red teaming 
capability on selected technologies.

Q3b.  Dr. Jackson also spoke about the potential need for 
organizational changes to utilize new technology or adapt to opponents. 
Does the S&T Directorate have the expertise to advise DHS components on 
organizational or operational improvements or provide research in this 
area?

A3b. The DHS operational components are the experts in their operations 
and organizational structure. The S&T Directorate will closely 
coordinate with the operational components on the development of 
incremental and innovative technologies. Through this close 
coordination, the operational components will be better able to 
evaluate these technologies, evolve new concepts of operations if 
necessary, and determine the degree of operational improvement each 
technology provides. This close coordination manifests itself through 
the Capstone IPT process where the S&T Directorate develops a better 
understanding of operational requirements. Demonstrations and pilots of 
technologies allow operational components and end-users to better 
understand and evaluate the technology as it matures, and 
experimentation provides an environment for the operational components 
to test the edges of the technology and the underlying operational 
concepts. The S&T Directorate is a component of this important chain, 
but our operational customers are the experts and end-users.
    The S&T Directorate has developed various test beds to evaluate 
technology in actual operational environments. The test beds allow us 
to evaluate technology for survivability, operational efficacy, and 
susceptibility to counter-measures. Relevant to Border Security, our 
border test beds provide integrated system level test platforms for 
evaluating border security sensor and processing technologies and 
demonstrating their performance in an operational environment. 
Furthermore, the test beds mature those technologies for transition, 
reduce associated technology risk, and establish lessons learned for 
our operational components. For example, in FY 2006, the S&T 
Directorate installed a southern border test bed in the Tucson sector 
of Arizona, which tested Border Patrol officer's abilities to remotely 
access databases, sensor alerts, and geo-spatial information via 
vehicle-mounted computers and hand-held devices. In FY 2007, the S&T 
Directorate expanded the southern border test bed by extending access 
to multiple law enforcement databases; deploying an in-field, 10-
fingerprint reading system; improving radio direction finding of 
individuals conducting counter surveillance in support of illegal 
activity; and adding a law enforcement asset location tracking 
capability (blue force tracking). In FY 2008, the S&T Directorate will 
install a northern border test bed demonstration in the Swanton sector 
of Vermont, which will include a multi-sensor fusion function, field 
level scene awareness capability, and law enforcement data base query. 
This puts new technology in real-world environments against real-world 
adversaries and provides a measure against current operational 
technologies and capabilities.

Q4a.  In your testimony you describe the university-based Centers of 
Excellence (CoE) as an integral part of the Directorate's long-term 
research agenda. How much of the Directorate's basic research is 
performed through CoE's versus individual grants or national 
laboratories? Does the Directorate have a planning mechanism for long-
term research across all of the divisions?

A4a. About 50 percent of the S&T Directorate's basic research budget 
goes toward Centers of Excellence (CoE) research.

Q4b.  Does the Directorate have a planning mechanism for long-term 
research across all of the divisions?

A4b. Yes, the S&T Directorate develops long-term research programs with 
the divisions. Long-term research develops the fundamental or 
scientific technical basis or understanding that future systems and 
devices will be based on. Long-term research needs are derived mainly 
from three sources; basic or fundamental research issues that are 
identified in the IPT program planning process, priorities unique to 
Homeland Security solutions, and leveraging opportunities with our 
research partners that have strong Homeland Security applicability. The 
S&T Directorate coordinates basic research workshops between the 
divisions and DHS in-house labs, the National Laboratory networks, and 
the CoEs.

Q5a.  To the credit of Under Secretary Cohen and yourself, the 
Integrated Product Team (IPT) process has significantly improved S&T's 
responsiveness to the other components of DHS. Does the focus on 
technologies that can be delivered in three years or less, however, 
bias the Directorate towards modest changes of existing systems? Is the 
IPT review system capable of assessing long-term research goals?

A5a. No. The Capstone IPT process is only one pillar of the S&T 
Directorate's investment effort. We also recognize the need to invest 
in basic research and in higher risk innovative technologies. The three 
S&T Directorate investment pillars compliment each other by allowing 
S&T to address near-term capability gaps while investing in longer-term 
solutions. The focus of the Capstone IPT process is to connect with the 
customer, understand their operations and capability gaps, and deliver 
near-term improvements to protect the Nation. Our innovation effort is 
informed by the Capstone IPT process but is focused on longer-term, 
higher risk, game-changing technologies. Basic research invests in 
areas where there are capability gaps but no near-term or innovative 
solutions. Basic research invests in these areas so that in the long 
run, we develop the understanding of the relevant basic science that 
will eventually provide the technical solutions our customers' need. 
Presently, about 15 percent of the S&T Directorate's budget goes toward 
long-term research. Our goal is to direct 20 percent of the S&T 
Directorate's budget toward long-term research.

Q5b.  Is the IPT review system capable of assessing long-term research 
goals?

A5b. Yes, the S&T Directorate's IPT process provides the information 
that feeds long-term research planning. As our technical subject matter 
experts work with other DHS components, they identify many R&D needs. 
If a capability gap identified by the customer cannot be solved by a 
near-term technology solution, or an immature high-risk technology 
solution that is not evident, then basic research is necessary to 
advance the science and find breakthroughs that could result in future 
technology solutions. The S&T Directorate's subject matter experts 
(SMEs) work directly with DHS component representatives to determine 
which needs fit into the scope of the three-year target and through our 
innovation effort. Other long-term, high-priority needs identified 
during the process are handled through the office of the S&T 
Directorate's Director of Research.

Questions submitted by Representative Phil Gingrey

Q1.  What were some of the capability gaps identified in the planning 
process CBP and S&T undertook? Were there projects that fell ``below 
the line'' and could not be immediately funded by the Directorate? If 
so, what were these items?

A1. Customs and Border Protection (CBP), along with Immigration and 
Customs Enforcement (ICE), co-chair the Border Security Capstone 
Integrated Product Team (IPT). The Capstone IPTs are arranged along 
departmental function lines, and thus, address overall border security 
and interior enforcement issues and not just a single component's 
priorities. As the co-chairs of the Border Security Capstone IPT, CBP 
and ICE followed a structured process that identified and assessed 
capability gaps. The Capstone IPT quickly realized that the high 
priority gaps identified by CBP were also common to ICE and the U.S. 
Coast Guard. The Capstone IPT identified several major acquisition 
programs that would benefit from the S&T Directorate conducting risk 
mitigation including CBP's SBINet and the U.S. Coast Guard's Command 21 
programs. Additionally, capability gaps were identified in the 
following areas:

        <bullet>  Improved ballistic protection via personal protective 
        equipment;

        <bullet>  Improved detection, tracking, and identification of 
        all threats along the terrestrial and maritime border;

        <bullet>  Ability to access ICE databases in which voice 
        information is entered; provide analytical, reporting, and 
        automated case de-confliction; classify, and identify voice 
        samples;

        <bullet>  Non-lethal compliance measures for vehicles, vessels, 
        or aircraft allowing for safe interdiction by law enforcement 
        personnel;

        <bullet>  Non-destructive tools to inspect hidden or closed 
        compartments to find contraband or security threats;

        <bullet>  Improved analysis and decision-making tools that will 
        ensure the development/implementation of border security 
        initiatives;

        <bullet>  Ability to non-intrusively determine the intent of 
        subjects during questioning;

        <bullet>  Ability for law enforcement personnel to quickly 
        identify the origin of gunfire and classify the type of weapon 
        fired; and

        <bullet>  Ability for law enforcement officers to assure 
        compliance of lawful orders using non-lethal means.

    There were capability gaps which fell below the line for the Border 
Security Capstone IPT based on resource limitations. The S&T 
Directorate's Capstone IPT process is customer-focused with the goal to 
deliver incremental technology improvements within three years. The 
three-year turnover establishes an automatic refresh capability. Once 
the Capstone IPT Process matures, we expect that each year 30 percent 
of our technology efforts will complete and transition, which would 
make funds available for the next below-the-line priority or the next, 
new, Capstone IPT-identified threat. The first priority Border Security 
Capstone IPT ``below the line'' capability gaps would be addressed by 
accelerating the following technology efforts: Tunnel Detection, 
Advanced Ground Surveillance Radar, Pattern Discovery and Prediction as 
a Decision Support System, Sense and Avoid Systems for Unmanned Aerial 
Systems (UASs), Counter Surveillance, and Less-Lethal compliance 
measures for personnel to provide solutions sooner to our DHS component 
customers.

Question submitted by Representative Adrian Smith

Q1.  You mentioned in your testimony the Border Officer Tools program 
and explained how this program will enable border security and Coast 
Guard members to perform their current tasks more effectively and 
safely. Could you please explain in greater detail how these 
technologies are assisting border patrol officers on the U.S.-Mexico 
border?

A1. There are two main projects under the Border Officer Tools and 
Safety program in the Borders and Maritime Security Division: Border 
Officer Tools and Border Officer Safety. Border Officer Tools will 
improve law enforcement effectiveness and enhance officer/agent safety 
while searching vessels/vehicles. Many of these tools will leverage 
technology currently under development by either DHS or Department of 
Defense (DOD) for their purposes. One effort is developing tools that 
support secure communications (i.e., voice and data) between field 
operators as well as between field operators and their command centers. 
Another example is an effort to deliver intrusive (requiring contact) 
as well as non-intrusive, non-destructive technologies to aid in the 
identification of contraband. In FY 2009, the project will conduct a 
technology survey to identify documentation resolution versus bandwidth 
solutions to provide 24-hour, Real-Time Image Transmission of high-
definition images and documents. The Border Officer Safety project will 
integrate technologies to enable border security law enforcement agents 
to perform their mission with greater safety. These technologies 
include, but are not limited to: Enhanced Ballistic Protection, 
Automatic Facial Recognition, Hidden Compartment Inspection Devices, 
and less-lethal Pursuit Termination-Vehicle/Vessel Stopping. In FY 
2009, the project will develop and document ballistic vest performance 
requirements for border application, evaluate equipment/technologies 
and develop gun-fire location requirements for law enforcement agents.
                   Answers to Post-Hearing Questions
Responses by Ervin Kapos, Director, Operations Analysis, Science and 
        Technology Directorate, Department of Homeland Security; 
        Executive Director, Homeland Security Science and Technology 
        Advisory Committee (HSSTAC)

Questions submitted by Chairman David Wu

HSSTAC Format

Q1.  The format of the HSSTAC was changed for the most recent iteration 
of the Committee. Previously, HSSTAC had a broad focus and provided 
recommendations for research priorities across the many fields covered 
by DHS S&T. Now, HSSTAC zeros in on specific project recommendations in 
a particular field, currently focusing on improvised explosive devices 
(IEDs). Why did the format of HSSTAC change? Given that the Committee 
is composed of experts from a variety of fields, are you taking 
advantage of the members' expertise when you focus on fields that fall 
outside their backgrounds? How does this format affect HSSTAC's ability 
to establish mission goals for the long-term?

A1. There have been changes to HSSTAC, however the Committee still 
adheres to its established responsibilities of reviewing and providing 
recommendations for research priorities across the fields that are, or 
possibly might be, covered in the programs of the S&T Directorate. In 
fact, that will be one of the topics to be covered in the next cycle of 
HSSTAC studies. At the same time, the Directorate asked the Committee 
to take intensive looks at problems that are pervasive in their impact 
on the S&T Directorate. For example, the HSSTAC will review what 
science and technology projects need to be undertaken in the next 
several years to provide an adequate basis for a capability to respond 
to the threat of improvised explosive devices (IEDs) in the U.S. 
domestic environment. Members of the HSSTAC have worked on the various 
portions of this problem as their backgrounds and expertise have 
particularly qualified them to do. The Committee also meets as a whole 
to critique and integrate the partial answers to the problem which 
becomes broad ranging advice to the Under Secretary for S&T. Finally, 
members representing the various academic disciplines have integrated 
well with the members representing the various first-responder and 
related fields, and we have found that this mode of operation supports 
HSSTAC's capability to establish mission goals for the S&T Directorate.

HSSTAC Expertise

Q2.  Does the membership of the HSSTAC include operational expertise 
that would allow the Committee to inform the Directorate on tactical 
concerns such as concepts of operation or organizational issues within 
the Directorate or other DHS components?

A2. Yes, the membership of the HSSTAC includes the operational 
expertise required to allow it to advise the S&T Directorate on 
concepts of operation and organizational issues that arise. Nearly all 
of the members have broad ranging and deep experience in Homeland 
Security activities and in what has been found to work and not to work 
in these areas in the past. Also, the membership includes 
representatives of the first-responder communities, such as law 
enforcement, fire safety, emergency management, and health affairs. The 
interaction between these first responders and the representatives of 
the various scientific disciplines on the HSSTAC has been consistently 
productive of valuable insights in areas such as concepts of operation 
and organizational issues.
                   Answers to Post-Hearing Questions
Responses by Brian A. Jackson\1\, Associate Director, Homeland Security 
        Research Program, The RAND Corporation
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research. This 
product is part of the RAND Corporation testimony series. The series 
records testimony presented by RAND associates to federal, state, or 
local legislative committees; government-appointed commissions and 
panels; and private review and oversight bodies. The RAND Corporation 
is a nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.

---------------------------------------------------------------------------
Questions submitted by Chairman David Wu

Q1.  In your testimony, you said, ``the effectiveness of security 
technologies can degrade as our adversaries adapt and alter their 
behavior in response to the introduction of defensive measures. That 
adaptive behavior can pose a significant risk to the security benefits 
new defensive technologies are intended to provide and, therefore, must 
be considered in technology planning.'' In your opinion, does DHS S&T 
recognize the need for adaptive, flexible technology planning? How do 
the contributions of various advisory groups, such as Integrated 
Product Teams and the HSSTAC affect DHS S&T's ability to adapt to new 
challenges?

A1. Our research on the effects of terrorist adaptive behaviors on the 
efficacy of defensive measures was sponsored by DHS S&T's Office of 
Comparative Studies to identify the implications for S&T planning for 
combating terrorism. Because RAND has not had the opportunity to 
examine DHS S&T's technology planning processes or the activities of 
groups like the Integrated Product Teams and the HSSTAC, I 
unfortunately cannot provide an informed answer on the extent the ideas 
developed in our or others' work on this topic are reflected in DHS 
planning efforts.

Q2.  You specifically mention how adversaries have been able to defeat 
the technologies identified as priorities in the bill: unmanned aerial 
vehicles (UAVs), tunnel detectors, and anti-counterfeit technology. How 
should these identified vulnerabilities affect how DHS proceeds in 
these research areas?

A2. Terrorist groups' past efforts to degrade the effectiveness of 
priority technologies like UAVs, tunnel detectors, and anti-
counterfeiting technologies can inform research planning in two ways.
    First, the ways that terrorist groups have found to do so provide 
lessons for improving future technologies that can be directly applied 
in current research activities. If approaches can be devised that 
render terrorists' past counter-technology strategies ineffective, our 
future defenses will be stronger as a result. Our research has shown 
that responding to terrorist adaptive behavior can involve 
modifications to the technical systems themselves, which would need to 
be an integral part of R&D programs, but frequently require changing 
the concepts of operation for how technologies are used as well. This 
emphasizes that in developing new defensive measures it is important to 
consider the ways those technologies will be used as part of the 
development process, since those concepts of operation may be critical 
to maintaining the technologies' effectiveness. It also underscores the 
importance of the transition efforts to move new technologies to end-
users and help shape their application.
    Second, in designing research programs for these priority 
technologies, the principles identified in our research and summarized 
in my testimony are important to ensure that the defensive measures we 
develop in these areas are robust to adversary adaptive efforts. 
Including testing, red teaming, and small scale technology pilot 
efforts in R&D programs is needed to identify and address 
vulnerabilities to their effectiveness. Furthermore, given that 
adversary groups have shown remarkable flexibility to respond to even 
sophisticated technologies, it is also critical to maintain reasonable 
flexibility in the technologies being developed and to build R&D 
portfolios in each of these areas (i.e., rather than focusing on only a 
single technology choice) to preserve ``fall back'' defensive options 
if the effectiveness of deployed technologies is compromised.

Questions submitted by Representative Ralph M. Hall

Q1.  What assessment technique would you suggest for determining the 
funding priorities among threats such as border security or 
radiological detection?

A1. In RAND's past research and testimony on homeland security, we have 
advocated that funding priorities should be informed by risk analysis--
an assessment of the threat of specific attacks, the vulnerability of 
targets of concern to those attack modes, and the consequences that 
would occur if an attack was successful. Use of risk analysis in policy 
planning ensures that priorities are defined not just by one these 
three factors in isolation but by all three together, providing a way 
of considering high probably, lower consequence events--such as 
``everyday'' illegal border crossings by individuals--with lower 
probability but potentially higher consequence events--such as 
radiological material being smuggled into the country.
    A risk-informed priority setting process for R&D would consider the 
seriousness of individual risks and select technology priorities and 
options based on their ability to reduce those risks. The results of 
our research on terrorist responses to defensive measures could 
contribute to such a process since those responses degrade the 
effectiveness of defensive technologies, thereby cutting their ability 
to reduce risk.

Q2.  What implications does your research have for the appropriate 
balance between short-term and long-term research projects? Are 
incremental changes to technological defenses enough to stay ahead of 
opponents' counter-efforts?

A2. It is difficult to provide a general answer to whether incremental, 
short-term technological changes are enough to stay ahead of adversary 
adaptive efforts. For some technologies, incremental efforts may make 
it possible to maintain a defense's efficacy for some time, though it 
is unlikely to do so forever. In other cases, depending in large part 
on the specific way the opponent has found to defeat the technology, 
incremental changes may provide little benefit. For example, if an 
adversary has found a way to avoid the functioning of the technology 
entirely (one of the four strategies our work identified that were 
highlighted in my testimony), incremental change is unlikely to be 
enough. The importance of both short-term and long-term research 
projects is therefore a part of the ``portfolio approach'' to 
developing defenses our work suggested, where it is longer-term work 
that may be the source of the ``fall back'' defensive options if 
today's technologies are breached. Focusing disproportionately on 
shorter-term efforts risks creating a defense that cannot respond to 
future changes in the threat.
    While it is easy to say that both short- and long-term focused work 
are needed, the resources available for supporting research and 
development are not infinite and resource constraints must limit the 
number and scale of activities that can be pursued simultaneously. As a 
result, in thinking about portfolios of defenses we are not suggesting 
that multiple ``full scale'' technology programs be pursued at once. 
Instead, what is needed is portfolios of smaller scale research, pilot, 
and technology evaluation efforts that maintain a group of options at 
differing levels of maturity that be then called on--and scaled up--if 
and when they are needed.
                   Answers to Post-Hearing Questions
Responses by Jeff Self, Division Chief, U.S. Border Patrol

Questions submitted by Chairman David Wu

All Threats

Q1.  You say in your testimony that Border Patrol has an `` `all 
threats' strategy with anti-terrorism as our main priority.'' In a 
conversation with a CBP officer at a major port, our staff learned that 
on-the-ground officers estimate that drug interdictions have decreased 
by approximately 90 percent since CBP's focus shifted to terrorism. In 
your opinion, is that estimate accurate? If so, how is CBP working with 
DHS S&T to identify promising technologies to improve the rate of drug 
interdictions?

A1. The Border Patrol, along with CBP, was an active partner with ONDCP 
and DOJ in the development of the National Southwest Border 
Counternarcotics Strategy, which was publicly released in October 2007. 
The Border Patrol is working diligently to implement the numerous 
strategy objectives that relate to combating all border threats, 
including narcotics. In FY 2007, the Border Patrol increased agent 
staffing along with complementary tactical infrastructure and 
surveillance technology to make gains in the number of miles under 
operational control between the ports of entry. These increases have 
contributed to the decrease in the number of arrests of aliens entering 
the United States illegally and the increase in the amount of marijuana 
and cocaine seizures nationwide. Border Patrol marijuana seizures 
(1,859,299 pounds) increased 36 percent; over 99 percent of that amount 
was seized on the southern border with Mexico. Border Patrol cocaine 
seizures (14,242 pounds) increased 11 percent; over 89 percent was 
seized on the southern border with Mexico, just over nine percent in 
the coastal border sectors and less than two percent along the northern 
border with Canada.
    CBP Border Patrol's area of responsibility (AOR) is focused between 
the official ports of entry, while CBP Office of Field Operations 
concentrates at the port of entry. The Border Patrol is unfamiliar with 
the CBP officer assertion regarding the reduction of drug interdiction. 
That being said, the U.S. Border Patrol is the Department's first line 
of defense in interdicting terrorists, terrorist weapons, including 
potential weapons of mass destruction--from entering the United States 
between the ports of entry. This complements the Border Patrol's 
traditional missions of interdicting illegal aliens and drugs and those 
who attempt to smuggle them across our borders between the ports of 
entry.
    To carry out its mission, Border Patrol has a clear strategic goal: 
to establish and maintain operational control of the border of the 
United States. All of our efforts are focused on this goal. The Border 
Patrol's strategy consists of five main objectives:

        <bullet>  Establish substantial probability of apprehending 
        terrorists and their weapons as they attempt to enter illegally 
        between the ports of entry;

        <bullet>  Deter illegal entries through improved enforcement;

        <bullet>  Detect, apprehend, and deter smugglers of humans, 
        drugs, and other contraband;

        <bullet>  Leverage ``Smart Border'' technology to multiply the 
        effect of enforcement personnel; and

        <bullet>  Reduce crime in border communities and consequently 
        improve quality of life and economic vitality of targeted 
        areas.

Reports/Recommendations

Q2.  Has the Homeland Security Science and Technology Advisory 
Committee or Homeland Security Institute prepared any reports or 
recommendations for U.S. Customs and Border Protection directly? If so, 
how did CBP use these recommendations?

A2. CBP has utilized the Homeland Security Institute (HSI) to conduct 
several studies. The first study was an analysis of CBP's apprehensions 
at the border, and the second was an operational assessment. Both of 
these studies, the outcomes and recommendations that followed, were 
intended to help CBP assess whether progress is being made in our 
border security mission. In short, HSI substantiated in their report 
that there has been a cumulative deterrent impact resulting from our 
regular operations and special initiatives such as Jump Start, 
Streamline, end of catch and release, and interior repatriation. CBP 
also utilized HSI to help determine the initial staffing requirements 
for the Secure Border Initiative (SBI) Program Executive Office (PEO), 
including the resources required to manage the SBInet procurement.

Questions submitted by Representative Ralph M. Hall

Tunnels

Q1.  What risk do tunnels pose to our border security?

A1. As the Border Patrol increases and expands its efforts along the 
border, there will always be methods that smugglers employ to try to 
penetrate and thwart our efforts. Cross-border tunnels have become one 
way of countering our success above ground. The success of the Border 
Patrol's mission above ground coincides with an increase in the amount 
of cross-border tunnel activity that has been found. It is more 
difficult and time consuming for smugglers to dig tunnels underground 
then to cross the border illegally above ground.
    Cross-border tunnels pose a threat to the Nation's border security. 
While those tunnels discovered thus far have primarily served as a way 
to smuggle drugs, clandestine tunnels could be used for illegal alien 
entry or to smuggle of weapons of mass destruction (WMD) or potential 
terrorists into the United States.
    The Border Patrol conducts below-ground sonar inspections in an 
attempt to find tunneling activity along the border, participates in 
multi-agency Tunnel Task Forces, and shares intelligence with partner 
agencies regarding this threat. The DHS Science and Technology (S&T) 
Directorate has an ongoing program which is looking for breakthrough 
technologies to improve our ability to detect cross-border tunnels/
tunneling activity. The goal is to develop a technology, or a 
combination of technologies that Border Patrol officers and other 
enforcement agencies can use to monitor the border for tunnel 
construction.
    As we gain effective control of the border, we expect to see 
smuggling organizations try other tactics, and we will adapt our 
efforts in order to shut those tactics down as well.

Red Tape

Q2.  What red tape must Customs and Border Protection or S&T overcome 
in order to use UAVs routinely? How has the Unmanned Aircraft System 
(UAS) program stacked up against helicopters and airplanes in 
effectiveness and cost as a tool for the Border Patrol?

A2. U.S. Customs and Border Protection (CBP) continues to work closely 
with the Federal Aviation Administration (FAA) and the Department of 
Defense on issues affecting the use of unmanned aircraft in the 
national air space. To date, the FAA has been very cooperative in 
meeting CBP's air space access requirements. Through the Office of CBP 
Air and Marine (A&M), the Agency's plans for expanded use of unmanned 
aircraft across all of the Nation's borders are being addressed with 
the FAA. In FY 2008, CBP A&M intends to conduct a maritime 
demonstration of UAS capabilities in conjunction with the U.S. Coast 
Guard, and to introduce a UAS to the northern border area of 
responsibility.
    The Predator B UAS provides CBP with a remotely piloted asset that 
allows for persistent, broad area surveillance with proactive responses 
that is driven by un-cued, cued, and intelligence based missions. With 
a maximum range of 3,000 miles and the potential for 30 hours of on-
station time, no other system in the CBP Air and Marine fleet provides 
the same capabilities as the Predator B. Instead of duplicating or 
replacing the capabilities of existing CBP assets, CBP A&M exploits the 
unique capabilities of the UAS to greatly enhance CBP's border security 
operations. The UAS will allow CBP A&M to support other DHS entities, 
including the U.S. Coast Guard, the Federal Emergency Management Agency 
(FEMA), and U.S. Immigration and Customs Enforcement (ICE). The FY 2008 
Appropriation requires CBP to submit a cost effectiveness report to 
Congress. Once that report is submitted to the committees on 
appropriations, CBP will share that cost effectiveness information with 
the Committee.

FAA Restrictions

Q3.  Currently the FAA requires that licensed pilots operate all 
aircraft in the National Airspace. The FAA does not allow fully 
autonomous aircraft to fly without special authorization. Would you 
expect a large increase in use of UAVs by the Border Patrol if these 
restrictions were lifted? Finally, has the Border Patrol gained benefit 
from early trials of remotely-piloted UAVs and would you consider 
participating in similar trials for autonomous drones?

A3. CBP A&M does not expect a large increase in the use of unmanned 
aircraft systems for homeland security if the FAA lifted their 
restrictions on pilot qualifications and system capabilities. The use 
of instrument-rated pilots for operations in the national air space is 
a safety of flight issue and CBP would retain the requirement even if 
the FAA lifted their restrictions. UAS operations across the southwest 
border have proven highly effective. In just over 1,500 hours of flight 
operations, CBP UASs have been credited with over 4,000 apprehensions 
and the seizure of about 15,000 lbs of illegal drugs. The Predator B 
UAS has the capabilities to meet all current CBP mission requirements. 
Should new requirements emerge that the Predator B could not 
accommodate, CBP A&M would investigate the use of other aviation assets 
to meet the new mission need.

Questions submitted by Representative Adrian Smith

Fences

Q1.  In your experience, where there are fences or physical barriers, 
are they singularly effective at preventing aliens from crossing the 
border illegally?

A1. Border infrastructure, in this case fences and physical barriers, 
is effective in certain areas. However, as experience and common sense 
suggests, fencing by itself cannot prevent all aliens from crossing the 
border illegally. There are stretches of fencing or barriers that are 
complemented by a presence of agents and technology to support the 
infrastructure, making the fencing and barriers operationally 
successful by preventing aliens from the crossing the border illegally. 
Technology allows the Border Patrol to identify and track illegal 
activity. Fencing helps deter illegal crossings and gives Border Patrol 
agents time they need to respond to illegal cross border activity. 
Fencing and barriers work hand in hand with manpower and technology to 
establish deterrence and increase the certainty of apprehension.

UAS

Q2.  As you stated in your testimony, the Unmanned Aircraft System 
(UAS) has assisted immensely in arrests and seizure of illegal drugs. 
In your opinion, are these types on technologies more capable and 
effective at preventing illegal entry into our country than physical 
barriers?

A2. CBP is building a border security system comprised of many 
components, and each component complements one or more of the others. 
UASs provide intelligence-gathering and surveillance capabilities as 
well as direct support to ground and maritime interdiction operations. 
But the UAS cannot meet all Agency border security requirements. In 
addition to Border Patrol agents on the ground, physical barriers and 
sensors are required to cover the vast areas threatened by illegal 
activities. Threat information must be processed and returned to the 
field as actionable intelligence. Only though an integrated network of 
ground systems, air and marine systems, sensors, communications, 
intelligence, and people can CBP accomplish its homeland security 
mission.

Documents

Q3.  How often do Border Patrol Agents come across fraudulent 
documents? What types of documents are most often tampered with? And 
how many documents must Border Patrol agents become familiar with?

A3. There have been fewer than 100 reported fraudulent documents 
encountered throughout the Border Patrol annually in the last five 
years.
    For encounters with tampered documents, agents generally come 
across the older plastic covered I-551, Lawfully Admitted Permanent 
Resident (LAPR) card and I-94, Arrival/Departure Record. The older I-
551 LAPR card was manipulated by photo substitutions and modifying the 
type within the card. The older I-551 LAPR card has been replaced with 
an updated holographic magnetic striped machine readable card with 
additional security features. The I-94 is a paper document that has 
computer type, ink stamping, an embossed seal and an attached photo. 
The I-94 is sometimes manipulated by photo substitutions and modifying 
the type and stamps.
    Agents must become familiar with immigration documents and other 
local governmental issued documents. Examples of immigration documents 
are the I-551 LAPR card, I-586 Border Crosser Card (BCC), I-94 and 
other foreign issued travel documents such as passports and visas. 
Other non immigration issued documents that Border Patrol Agents need 
to be familiar with are birth and marriage certificates, Social 
Security Cards and driver's licenses.















                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
